<html>
<title> - AFRICA'S DISPLACED PEOPLE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                       AFRICA'S DISPLACED PEOPLE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2015

                               __________

                           Serial No. 114-86

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                    U.S. GOVERNMENT PUBLISHING OFFICE
95-424PDF                 WASHINGTON : 2015                    
                                          
 _____________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>  
                    
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,                    AMI BERA, California
    Tennessee<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Catherine Wiesner, Deputy Assistant Secretary of State, 
  Bureau of Population, Refugees, and Migration, U.S. Department 
  of State.......................................................     2
Mr. Thomas H. Staal, Acting Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    10
Mr. John Stauffer, president, The America Team for Displaced 
  Eritreans......................................................    35
Ms. Ann Hollingsworth, senior advocate for government relations, 
  Refugees International.........................................    47
Ms. Natalie Eisenbarth, policy & advocacy officer, International 
  Rescue Committee...............................................    54

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Catherine Wiesner: Prepared statement........................     5
Mr. Thomas H. Staal: Prepared statement..........................    12
Mr. John Stauffer: Prepared statement............................    38
Ms. Ann Hollingsworth: Prepared statement........................    50
Ms. Natalie Eisenbarth: Prepared statement.......................    57

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Prepared statement..............................    84
Ms. Ann Hollingsworth: Refugees International Field Report.......    86
Ms. Natalie Eisenbarth: Report on Integrated Community Case 
  Management at the International Rescue Committee...............    94
The Honorable Christopher H. Smith: Statement of the U.S. 
  Committee for Refugees and Immigrants..........................    97


                       AFRICA'S DISPLACED PEOPLE

                              ----------                              


                         THURSDAY, JULY 9, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and good 
afternoon, everybody. Sorry we are starting a few minutes late. 
Without objection, I am going to put my full statement in the 
record, and in conversations with our ranking member, she will 
likely make a statement shorter than we normally give, both of 
us, because there are a whole series of votes likely to be 
happening, and it is important to get to our witnesses.
    Last year, nearly 60 million people were displaced 
worldwide. In fact, one out of every 122 people on Earth today 
is yet either a refugee, internally displaced in their home 
country, or seeking asylum in another country. In sub-Saharan 
Africa, there are more than 15 million displaced people. Of 
that total, 3.7 million are refugees, and 11.4 million are 
IDPs. These disruptions of normal life in Africa are caused by 
conflicts such as in Somalia, the Central African Republic, 
South Sudan, Nigeria, the Democratic Republic of the Congo, 
Mali, Burundi, Western Sahara, and elsewhere. These disruptions 
not only affect those who are displaced, but also the people in 
whose communities these displaced people are relocated.
    African refugees and internally displaced people face 
numerous issues from security in the places in which they seek 
refuge, to death and mayhem trying to reach places of refuge, 
to conflict with surrounding populations to warehousing that 
consigns a generation to be born and live in foreign countries.
    Today's hearing will exam the various issues displaced 
people face, and the U.S. response to these conditions in order 
to determine the effectiveness of our Government's efforts to 
help and to determine whether course corrections are necessary. 
The terrible plight of African refugees has been much in the 
news in recent months because of the deaths of thousands trying 
to reach Europe across the Mediterranean and attacks on 
refugees in South Africa reportedly caused by xenophobia.
    So I, without objection, will put my full statement in the 
record. I yield to Mr. Cicilline for his opening.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
you and our Ranking Member Bass for calling this important 
hearing today. And thank you to the witnesses for the testimony 
that you will provide.
    The level of conflict and displacement around the world 
today is astounding, and the shocking number of 15 million 
people displaced in Africa is heartbreaking. Some of the 
conflicts that have upended people in Africa such as in Darfur, 
the DRC, and Somalia have gone on for decades, and we now face 
entire generations of children and their parents who have been 
born and raised away from their homelands. Many of these 
displaced persons have never lived outside of an IDP or refugee 
camp. They lack access to basic necessities and have little 
schooling.
    Aside from the obvious tolls those conflicts have, they 
also have a lasting impact on generations of Africans. The 
United States is one of the largest donors to the U.N.'s High 
Commissioner for Refugees, as well as provides millions of 
dollars every year in bilateral humanitarian assistance, but 
needs still outpace global donations. So I look forward to 
hearing from our witnesses what more we can do to make certain 
that the needs of IDPs and refugees are being met, and thank 
you again for the testimony you are about to provide, and I 
yield back, Mr. Chairman.
    Mr. Smith. Thank you.
    I would like to introduce our first two panelists, and I 
thank them for taking the time to be here and for their work 
and their dedication.
    Beginning first with Ms. Catherine Wiesner, who is Deputy 
Assistant Secretary in the State Department's Bureau of 
Population, Refugees, and Migration, a position she has held 
since February 2012. She oversees the Offices of Assistance 
Programs for Africa, Multilateral Coordination and External 
Relations, and International Migration. She has also served as 
Principal Director to the Deputy Assistant Secretary of Defense 
for African Affairs in the Department of Defense. Previously 
she worked for UNICEF, the International Rescue Committee, 
UNHCR, and Save the Children.
    Then we will hear from Mr. Thomas Staal, who is currently 
the Acting Assistant Administrator for the Bureau for 
Democracy, Conflict, and Humanitarian Assistance at USAID. He 
has worked for USAID since 1988, beginning in Sudan as an 
emergency program officer. He worked in the USAID regional 
office in Kenya managing food aid and project development 
throughout eastern and southern Africa. More recently, he 
served as the USAID Mission Director in Ethiopia. Before 
joining USAID, Mr. Staal worked for World Vision as their 
country representative in Sudan.
    Catherine, if you could begin.

STATEMENT OF MS. CATHERINE WIESNER, DEPUTY ASSISTANT SECRETARY 
 OF STATE, BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Ms. Wiesner. Thank you, Chairman Smith, Ranking Member 
Bass, and members of the subcommittee for the opportunity to 
describe today what the State Department's Bureau of 
Population, Refugees, and Migration is doing in Africa to 
protect and assist African refugees and other persons of 
concern on the continent.
    We should note that today is South Sudan's Independence 
Day, and it is a painful reminder of how conflict can undo 
progress and shatter hope. Instead of celebrating, South Sudan 
is embroiled in a humanitarian crisis that is the worst in 
Africa and one of the worst in the world.
    In a year that set new records for displacement, Africa has 
not been spared. Today, we count 4\1/2\ million sub-Saharan 
refugees, and more than 11 million internally displaced. 
Burundi is the newest emergency. Some 150,000 refugees have 
already fled, fearing that political violence and intimidation 
could escalate into mass atrocities.
    Mr. Chairman, as you noted, conflict continues to stalk 
Nigeria, South Sudan, the Central African Republic, Mali, 
Sudan, the Democratic Republic of the Congo, Somalia, and 
Libya, and for each country afflicted, there are two, three, 
four neighboring countries struggling to stop the violence from 
seeping across their borders and to host thousands and 
thousands of refugees. The vast majority of refugees flee to 
areas that are underdeveloped, remote, and difficult to reach. 
Moving civilians out of harm's way and providing life-saving 
assistance is expensive and it can be dangerous. Refugees often 
join vulnerable migrants on the move, lured by predatory 
smugglers taking advantage of lawlessness in Libya and 
elsewhere.
    The humanitarian organizations that we support are 
stretched incredibly thin, but they are doing heroic work, 
standing up for humanitarian principles and finding creative 
ways to get around obstacles and to save lives.
    U.S. leadership and our diplomatic and our financial 
support for these organizations are vital. Humanitarians are 
innovating and using new technology, such as biometric 
registration, cash transfers, and remote e-learning to improve 
services. Our Safe from the Start initiative is keeping more 
women and girls safe from gender-based violence.
    On recent trips to Africa, I have seen the scale of the 
crisis we face, and I have also seen the importance of the aid 
that we provide. I was in Ethiopia a few months ago, which 
hosts more refugees than any other African nation. Refugees 
come from Eritrea, Sudan, South Sudan, and Somalia, and are 
found in camps on nearly every one of Ethiopia's borders, as 
well as in all its major cities and towns.
    Many refugees set off for Europe and the Gulf states, 
despite the efforts of the government and humanitarian 
agencies. They know human smugglers may abuse them, kidnap them 
for ransom, or abandon them to die in the desert or drown at 
sea. It doesn't stop them because they would rather risk death 
than stay behind in places where they have no hope for any kind 
of future.
    I just returned from Niger, one of the most impoverished 
countries in the world. Boko Haram's rampages have chased more 
than 100,000 people across the border from Nigeria, and 
displaced an additional 50,000 inside Niger. Many are scattered 
in villages where food is already scarce and insecurity 
restricts access. But agencies are responding creatively with 
cash transfers and vouchers and assisting all those in need 
based on vulnerability.
    For pastoralist refugees from Mali, the Niger Government 
has set aside an extensive zone where they can move with their 
animals, allowing for greater self-sufficiency, and also 
dignity. In Niger and elsewhere, investments made in schools, 
clinics, and clean water for refugees and host communities 
alike contributes to local development while fostering peaceful 
coexistence.
    We work closely with USAID and our diplomatic colleagues to 
resolve conflict. In the meantime, aiming to ensure that there 
is a safe place of refugee and that aid reaches 
internationally-accepted minimum standards. We and USAID are 
also working to develop greater coherence between relief and 
development assistance, particularly for protracted crises. 
Durable solutions can seem elusive. Al-Shabaab's atrocities 
have set Kenya on edge, and while U.S. diplomacy has worked to 
prevent Somalis from being forced back prematurely, they still 
get branded wrongfully as potential terrorists.
    Darfuris in Chad still need protection and struggle to 
achieve self-reliance. Political stalemate on the Western 
Sahara has left Sahrawis languishing for far too long in 
Algeria. And the Ebola epidemic has delayed efforts to bring 
Ivoirian refugees home from Liberia. And yet there are bright 
spots: Tanzania and Zambia are allowing more refugees to stay 
permanently, and some to become citizens. Some 19,000 African 
refugees will find new homes in the United States through our 
resettlement program this year.
    My Bureau expects to program nearly $800 million across the 
continent of Africa this fiscal year, channeling our funds 
through leading humanitarian organizations, such as the U.N. 
Refugee Agency, the International Committee of the Red Cross, 
the International Organization for Migration, and a range of 
other aid groups. Even with this record amount, we cannot claim 
to be meeting all of the needs, even at the most basic level. 
We can, thanks to the generosity of Congress, confidently say 
that we are saving many lives, and we are assisting millions to 
live in greater dignity and with hope for a better future.
    Thank you, again, for holding this important hearing, and I 
look forward to any questions.
    [The prepared statement of Ms. Wiesner follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Smith. Ms. Wiesner, thank you very much for your 
testimony.
    Mr. Staal.

      STATEMENT OF MR. THOMAS H. STAAL, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Staal. Chairman Smith, Ranking Member Bass, and members 
of the subcommittee, thank you for inviting me to testify 
today, and for your continuing support for USAID's assistance 
to the displaced throughout Africa.
    As my colleague Catherine has just mentioned, we are 
grappling today with the largest global displacement in 
recorded history. Whereas in the past, natural disasters 
triggered mass movements of people across Africa, terrorism and 
ethnic and sectarian strife are now increasingly driving record 
numbers of people from their homes. Across Africa, the most 
vulnerable are the hardest hit--in the midst of power grabs by 
armed forces, governments, and terrorists. Women are facing new 
levels of terror, rape, and forced indoctrination. Children 
have been stripped of their innocence and inflicted untold 
tortures by armed groups.
    But amidst these horrors, there are countless affected 
individuals in search of peace: The girls from Chibok, Nigeria, 
lucky enough to escape the grips of Boko Haram, Imam Omar; 
Archbishop Dieudonne and Reverend Guerekoyame, from the Central 
African Republic, who are bringing communities together to heal 
the scars of war and find faith in the power of forgiveness; 
the children of Bor in South Sudan who continue to learn in 
their native Dinka through our mobile literacy programs. Their 
courage and resilience in the face of brutality reminds us why 
we must continue and to do more to help.
    Despite resource, access, and security constraints, we are 
doing everything possible to reach Africa's displaced people 
with life-saving assistance. For instance, in South Sudan, we 
are the largest humanitarian donor. Since the current crisis 
began in December 2013, we have provided $1.2 billion in food, 
shelter, clean water, health care, and psychological support to 
the people. As fighting rages on, more than 40 percent of the 
country now faces life-threatening hunger. Our humanitarian aid 
is an essential lifeline for those who are suffering from this 
senseless violence.
    In Nigeria, we are making sure displaced and host 
communities have access to health care, vaccines and clean 
water. We are also supporting informal education centers for 
displaced children. And thanks to the flexibilities provided 
to--in our food aid accounts, we have provided food vouchers to 
over 100,000 Nigerians in conflict. And with these vouchers, 
they can buy healthy foods in the local market, which helps to 
combat malnutrition and restart economic activity in these war-
ravaged areas.
    We are also committed to protecting women, children, and 
other vulnerable groups. For instance, we are providing health 
and psychosocial support to victims of gender-based violence in 
South Sudan, and to survivors of Boko Haram's abuses in 
Nigeria. In the Central African Republic (CAR), we worked with 
UNICEF to negotiate the release of 3,300 boys and girls from 
armed groups and reintegrate them back with their families.
    We know that the plight of displaced people will not lessen 
unless we address the root causes of violence and state 
fragility at the heart of Africa's displacement crisis. That is 
why we are investing in peace building, promoting inclusive 
governance, and expanding educational and economic 
opportunities for Africa's most marginalized communities. Our 
Office of Transition Initiatives is addressing the conditions 
that have allowed extremists like Boko Haram to flourish.
    Through innovative sports and radio programs, we are 
working with local communities, especially young people, to 
overcome feelings of exclusion and the lure of extremism. We 
have harnessed conflict early warning tools and engaged in 
concerted diplomacy through the interagency Atrocity Prevention 
Board to address flashpoints of instability.
    In CAR, the Complex Crisis Fund, and other programs have 
proven critical in preventing genocide and mass atrocities, 
expanding the space to safely provide humanitarian assistance, 
facilitating the conditions for peaceful transition. USAID has 
provided $7.5 million to promote community dialogue, especially 
between groups of different faiths in CAR, and we are reviving 
local media networks to provide accurate information and dispel 
rumors that are spreading fear. And we have launched the CAR 
Peace Partnership, which is providing several million in 
private donations linked with $7 million of USAID funding to 
support CAR's transition over the next 5 years.
    We may not have stopped the violence in CAR, but we have 
been able to improve security conditions, allowing people to 
begin to return home, laying groundwork for peace. These 
efforts, and many more, are helping Africa's displaced to 
rebuild their lives, restore tolerance in their communities, 
and realize their aspirations for a more peaceful and 
prosperous future.
    We thank the subcommittee and its members for their 
longstanding support, which makes these efforts possible. Thank 
you very much, and I look forward to your questions.
    [The prepared statement of Mr. Staal follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Staal, for your 
leadership and for your testimony today.
    Let me ask you if I could, especially since you did work 
with World Vision in the past, and both of you might want to 
speak to this. You know, Africa is a continent of faith, and 
from my travels, sometimes the faith community, for whatever 
reason, is not included as robustly as it should. I know you 
know that, and I am wondering if you could just tell us when it 
comes to IDPs and refugees, is there a plan, an aggressive 
effort to try to build on the economies of scale that would be 
provided?
    To give an example, I was in Jos a few years ago with Greg 
Simpkins, and while we were there--it is a place where Boko 
Haram has slaughtered many people. We went to fire-bombed 
churches while we were there. We met with Archbishop Kaigama 
and also met with the Muslim leadership who worked very, very 
closely together. And then we went to an IDP camp that was 
grossly underfunded and in great need. The Jubilee Campaign was 
providing some funding, and, as a matter of fact, one of the 
men I met there who actually had a gun put to his head, an AK-
47, and was told to renounce his faith in Christ, he said: No. 
I am ready to meet my Lord, and they blew his face off, and you 
could see the results of that. They left him for dead. We 
brought him here courtesy of the Jubilee Campaign. He testified 
in 2172. You could have heard a pin drop, you might recall, 
when he testified about what he had been through.
    But at the IDP camp where I met him, it was with great 
regret that they were not getting the kind of help that they 
need. And, you know, I brought that to the attention of the 
Embassy. I hope that there has been an effort to try to reach 
out and do that. You did point out some of the numbers, and I 
know, you know, it is always, do you have the budget? Do you 
have the wherewithal? Is Congress providing enough? It is a 
shared responsibility.
    So if you could speak to that. These IDPs that are 
scattered, and you put that in your testimony so that people 
who are already poor are taking on more, you know, desperately 
poor people and traumatized people at great sacrifice. So if 
you could speak so that, I would appreciate that.
    And my second question would be on the budget. Is the 
budget sufficient? Are we providing enough? Do you feel that 
there are unmet needs that you would be doing if you had the 
money? Today, Ann Hollingsworth from Refugees International, 
will speak about her personal observations to the Sudanese 
refugee population in Chad. As she points out, in her view, it 
is an underreported story, and she goes to great lengths to 
talk about the cuts that WFP has made in early 2014, of a 
dramatic 50 percent cut, up to 60 percent in some areas, in 
food rations for Sudanese refugees in Chad.
    She does point out later on about the self-reliance 
approach, which I think is a very innovative and good idea, 
provided there is an infrastructure that can accommodate that, 
and that is part of what her concern is, that there is not that 
infrastructure to accommodate a self-provided approach. If you 
could speak to that as well.
    And then apparently we are not going to have votes until 
4:30. So we are not as rushed as we thought we would be.
    One of the areas that I think is absolutely 
transformational, I know you believe it as well, because USAID 
is totally committed to it, and that is the first 1,000 days of 
life from conception to the second birthday, and the scaling up 
programs that are going on. In Nigeria I have met and been to 
places, camps and to healthcare facilities, where stunting, and 
you know it, is a huge problem. And if the child and the mother 
get, as you know, sufficient supplementation, good nutritious 
foods, stunting almost goes away. Not in all cases. The child's 
immune system is bolstered big time, and I don't know if you 
know this, but I actually authored three laws on autism, 
including the Combating Autism Act, and most recently, the 
Autism CARES Act.
    And three studies show that if a woman has folic acid in 
the first month of the pregnancy, after that it has an almost 
negligible impact, but the first month it brings down the risk 
factor of autism by 40 percent, which is absolutely 
transformational. As we know, WHO attests to, we are talking 
about tens of millions of kids, children, throughout Africa who 
are autistic and on the spectrum, and a very simple innovative 
inclusion. And I know Uganda and others have already 
supplemented, or put into their flour and other things, the 
right amount of folic acid.
    So my question is about that first 1,000 days of life. In 
2010, I met with seven first ladies of Africa at the U.N., and 
they gave powerful presentations, but they don't always have 
the wherewithal to make sure that that unborn child and that 
mother, right until the second birthday, get the help they 
need. And then the next 25,000 to 30,000 days of that life will 
be exponentially improved, immune system strengthened, ability 
to resist malaria and its consequences. So I am wondering in 
the refugee population, the IDP population, what are we doing 
to scale up that first 1,000 days of life initiative?
    Mr. Staal. Thank you, Chairman Smith, for those questions. 
Critical questions, and, in fact, on your first question, 
working with faith-based organizations, just this morning I was 
actually on the panel over at the Religion and Sustainable 
Development, focusing on humanitarian assistance, meeting with 
a number of faith-based organizations.
    That is an increasingly important part of the work there. 
Unfortunately, some of the conflicts in Africa are sectarian 
conflicts, and so the role of faith-based organizations has 
unique challenges, but unique strengths, and their strengths 
are that they have networks, they have credibility in the local 
community, they have systems to get out the word through their 
churches, mosques, and so on, and actually we have been--I 
don't say that maybe ``surprise'' is not the word, but happy to 
see that they are actually able to work together in many cases. 
You know, the case of Central African Republic where the Muslim 
imam, Catholic bishop and a Protestant leader have been working 
very closely together. In fact, the Islamic relief organization 
has their offices in the Catholic Relief Services (CRS) 
building. They provided offices for them. So you are seeing 
that. And increasingly, we are trying to work through those 
organizations. South Sudan is another major example of that 
where we have really reached out.
    Now, they may also be involved in the conflict. So there 
are concerns of partiality. There are concerns sometimes that 
they are too closely linked with Western organizations. You 
know, it is good that Catholics have reached back through CRS, 
for instance, but on the other hand, sometimes local 
organizations say you are too closely linked. So that is 
something that they have to overcome and that we work with them 
on, and important to build that local capacity. But definitely, 
that is a major focus for what we are doing. I have met with 
the religious leaders in northern Nigeria from both sides as 
well, and they can play a crucial role there.
    On your question about the budget, we have a robust budget 
thanks to Congress. We are the largest humanitarian assistance 
providers throughout Africa and the world. The needs are huge, 
as you and others have said and so we are increasingly looking, 
first of all, to make sure that every dollar is well spent, and 
then, are there ways that we can tweak our programs to make 
sure they are even more effective and more efficient?
    Some of the food aid efficiencies that we have been able to 
do by some local purchase or vouchers have actually been able 
to reach 600,000 more people with the same amount of money over 
the last year because of that.
    In the camps, Dadaab and Kakuma in Kenya, through working 
with UNHCR, they now do fingerprinting of all the refugees. 
That has reduced the number of beneficiaries by 20 percent, 
because there were a lot of people that shouldn't be getting 
the assistance or were double-counting and so on, and that is 
saving $1.5 million a month right there.
    So, we are able to stretch those dollars. And then at the 
same time, we are working very closely with other donors to 
make sure they are upping their stuff, and with what you might 
call nontraditional donors.
    I made a trip to Chad a few months ago with the Saudis, the 
Kuwaitis, the Emiratis and the Qataris to try to increase their 
support, not only in the Middle East, but also in Africa. So we 
are making some progress, but it is a huge demand, and I think 
we also need to go to more creative methods. Such as how do we 
get the private sector to be more involved? In the Central 
African Republic, we have a peace partnership bringing in the 
private sector, but I think it is not just about corporate 
social responsibility. We need to find ways to make it 
attractive for investment in those communities, and I think 
that is something that is a challenge for us and the 
international community to work on.
    Mr. Smith. On that first 1,000 days, is that----
    Mr. Staal. On the first 1,000 days--yes. Thank you. That is 
so critical.
    That is part of the reason that we have recently, over the 
last couple of years, put a lot of thinking and research to 
develop improved products, especially for those young children 
in the first month and in the first year. With these ready-to-
use supplemental foods and ready-to-use therapeutic foods, we 
have redone our famous CSB, the corn/soy blend, so that it is 
now more fortified with the right kind of vitamins and 
minerals, especially addressing the kids at that age, and 
working, not only through our humanitarian programs, but 
through Feed the Future and some of our agriculture programs, 
to make sure that countries are properly fortifying the flour 
that goes through their normal commercial sectors. There is 
iron fortification and other types of things to address some of 
those very issues. Critical. Thank you.
    Ms. Wiesner. I think my colleague Tom has said most of it, 
but just to add on the question of working with religious 
communities, when I was in South Sudan at the IDP site inside 
the UNMISS peacekeeping base in Bor, I met with a pastor who 
was still in touch with his colleagues of other ethnicities who 
were living outside of that base, and the level of violence 
between communities in South Sudan has been so shocking, but it 
is heartening when you find people like that who are determined 
to overcome that violence. And a number of the religious 
leaders who actually have resided inside these camps have been 
helpful in mitigating some of the intercommunal tension. So, 
part of the increasing focus on recognizing the role of 
frontline humanitarian responders has been that the first 
people usually to provide aid are from within local communities 
they are from the country themselves.
    Even the national staff of some of the international 
organizations that we fund are, in fact, from those 
communities. And so I think making sure that we understand the 
important role they play and invest in that is quite important.
    On the budget, Tom has also said it, but there is no 
question that this is an extraordinary period of humanitarian 
need, and that the resources are not keeping pace, but I think 
the bottom line is that the U.S. Congress has been generous and 
that the U.S. is generally paying its fair share. So I think 
the partnership that we could form would be to do some of this 
outreach that Tom has talked about to other states, to the 
private sector, even for private giving. A lot of the money 
that is raised from private individual donors generally goes 
toward natural disasters, which is really important and 
wonderful, but we would like to see if we can increase that 
type of interest in some of these conflict-related situations 
and bring more donors into the field.
    Mr. Smith. Thank you.
    Ranking Member Bass.
    Ms. Bass. Thank you very much, Mr. Chair. A few questions I 
wanted to ask you, I was thinking about what you were saying in 
terms of the first 1,000 days, and it made me think of how 
difficult it is, frankly, to be pregnant here in Washington, 
DC, if you are poor, let alone in an IDP camp. So I wanted to 
know what we were doing in terms of family planning for those 
women who do not want to be pregnant because they are in a 
refugee camp, and, you know, whether it is direct U.S. dollars 
or U.S. collaborating with NGOs. What are we doing to provide 
family planning services in IDP camps?
    Mr. Staal. It is so critical to provide all the options for 
the local women in terms of family planning for those who want 
it. When I was working in Ethiopia, I visited not only local 
communities, but the IDP camps. Often they are living in the 
local community, to improve the skills, if you will, of the 
local health providers so that they can counsel young women on 
what their options are, and then provide those services at the 
community level. It used to be you had to go all the way to a 
hospital. Now, in many of these countries, through our 
interventions, they are able to provide that at the local 
community level.
    Ms. Bass. But what about in the IDP camp? Are you referring 
to IDP--when you say ``community,'' you are referring to the 
camp itself? So while we provide the food assistance and all, I 
am just wondering, in the camp?
    Mr. Staal. Yes. Through our food assistance and through our 
healthcare assistance, we then also provide various family 
planning methods to the women. First the counseling on what 
their options are, and then the actual----
    Ms. Bass. Birth control?
    Mr. Staal. Birth control, condoms, things like that.
    Ms. Bass. Okay. Thank you.
    Ms. Wiesner. And we also support UNFPA which provides 
reproductive health services to displaced people, and they have 
been working on improving their emergency services to make 
those available sooner in an emergency including for 
adolescents.
    Ms. Bass. So I was thinking about, you know, every few days 
on the news, we see the folks who are dying at sea leaving 
Libya and going to Europe, and I was wondering what kind of 
collaboration are we doing?
    Ms. Wiesner. Well, first of all, two of our key partners, 
the U.N. Refugee Agency and the International Organization for 
Migration, are highly engaged in this challenge. And so we do 
support both of those organizations to work with countries of 
origin, with countries of first asylum, with countries of 
transit, and as well as the work they do in Europe where people 
arrive. So, one of our priorities is to promote the role that 
they play because they operate based on a set of very important 
humanitarian principles.
    But it is a very complex challenge. Migration is not 
something that can be stopped. It is not something that 
necessarily should be stopped. People who are fleeing violence 
and persecution need to have the opportunity to seek 
protection. Even people who are just seeking better economic 
opportunity for their families will always continue to do so, 
and, in fact, can be a benefit to the societies that they 
travel to.
    The challenge is in making that migration safe and orderly, 
and so, I think that is what Europe is grappling with right now 
is how to create more legal avenues for migration, how to crack 
down on unscrupulous smugglers who take advantage of people, 
and also, to address the root causes that are causing people 
who would not otherwise choose to move from doing so. And that 
is a responsibility, I think, of the global community because 
of the humanitarian dimensions of this crisis. But it also is a 
very specific responsibility of states, because ultimately, 
immigration laws and policy are the responsibilities of states. 
What we always advocate at PRM, from a humanitarian 
perspective, is that human rights must be respected, even as 
countries seek to implement laws and secure their borders.
    Ms. Bass. You know, you mentioned 19,000 African refugees 
in the United States. Where are they?
    Ms. Wiesner. Where are they coming from or where are they 
going to?
    Ms. Bass. Both, actually.
    Ms. Wiesner. So 29 different nationalities benefit from 
that program, which means they are coming from all over the 
continent.
    Ms. Bass. So are they connecting--when they come to the 
United States, are they connecting with family? We have had the 
situations in the past whether they were refugees from Somalia 
or other countries or the Sudan, so is it that type of 
situation where they are not connected to family here or they 
are?
    Ms. Wiesner. It is both. And Somalia is one of the largest 
populations that we do resettle, and some of them are coming to 
join family who have come previously; others are coming purely 
based on their own claims to asylum.
    Ms. Bass. Could you list a few other countries? Like the 
top five, maybe, would be helpful.
    Ms. Wiesner. We will get back to you with the precise 
figures on the top five.
    [The information referred to follows:]
Written Response Received from Ms. Catherine Wiesner to Question Asked 
             During the Hearing by the Honorable Karen Bass
    In FY 2014, the top five African nationalities admitted to the 
United States through the Refugee Admissions Program for resettlement 
and the number of refugees for those nationalities were:
        1. Somali--9,000
        2. DR Congolese--4,540
        3. Eritrea--1,488
        4. Sudanese--1,315
        5. Ethiopia--728

    Ms. Bass. And then I can't remember which one of you 
mentioned providing psychosocial--I think it was you, Mr. 
Staal--mentioned providing psychosocial services. And were you 
referring to Nigeria?
    Mr. Staal. Yes.
    Ms. Bass. So who are the providers and how is that done?
    Mr. Staal. It is a combination of organizations--some of 
them are U.N., like UNICEF, especially for children who are 
affected, either directly through the release from captivity, 
or just from the displacement, and then some of our NGOs as 
well. In fact, we make sure that every grant that we provide 
through our OFDA programs includes the protection aspect as a 
component.
    Ms. Bass. And are they social workers? Do you know what 
kind of providers they are?
    Mr. Staal. It is a combination of things. Most of them are 
probably not trained social workers. Some of them are, but 
there is a lot of other things too. Even things like we provide 
what we call safe spaces for the children in the IDP or refugee 
camps, so that there is a tent that is just for children to go 
and play, and maybe have some kindergarten----
    Ms. Bass. I am just curious as to how they deal with all 
the different cultures that they encounter, you know. What kind 
of backgrounds and training that they----
    Mr. Staal. It is critical to involve the local community 
themselves, and find people in the community that you can 
provide some training, maybe they already have some, and work 
with them to help to bridge that gap. Yes, so critical.
    Ms. Bass. And then, finally, you were talking about our 
involvement in CAR, and you were talking about the conflict, 
the Muslim/Christian conflict, and are we involved in any 
conflict resolution? And we are able to fund faith-based 
organizations directly. Correct?
    Mr. Staal. Yes.
    Ms. Bass. We fund both Christian and Muslim?
    Mr. Staal. Yes. Thank you very much. In CAR, we have 
several programs that are definitely focused on conflict 
prevention, youth engagement, and directly involving faith-
based organizations, both Christian and Muslim, primarily 
through international organizations that have international 
faith-based or Western or Muslim groups who then have local 
groups that they work through there.
    Ms. Bass. Thank you.
    Mr. Staal. And we are seeing some real positive movement 
there. Thanks.
    Ms. Bass. Excellent.
    Mr. Smith. Thank you.
    Mr. Cicilline.
    Mr. Cicilline. Thank you. Thank you, Mr. Chairman. Thank 
you to our witnesses. I think as was mentioned, we are living 
at a time of really unprecedented refugee and displaced 
persons. I think the number is close to 60 million, according 
to the United Nations. And you spoke a little bit about what we 
are doing, both what the U.S. is doing and what we are 
encouraging others to do, and in light of the magnitude of the 
challenge, is the United States doing enough? Should we be 
doing more? Are there additional things we could be doing to 
support the refugees and internally displaced persons? And at 
the same time, what success are you having? You said you have 
been in conversations with some potentially new donors. I think 
the last report by the U.N. was that if you look at the 
humanitarian crisis in Syria, Iraq, South Sudan, Yemen, 
Somalia, and a few others places, that international donors so 
far are only providing about 26 percent of the need, which 
means obviously three-quarters of the need is not being met. 
Would you talk a little more about the conversations that are 
being had with other countries and the likelihood that they 
will do their part in responding to this crisis in different 
places around the world?
    Mr. Staal. Thank you, Mr. Cicilline. An important question. 
As I said, the need is so huge, and there is a combination of 
things, and we have seen some positive movement from, 
especially the Middle Eastern countries. As I mentioned, I was 
in Chad, and as a follow-up to that, I know that several of 
them have now put some money into supporting some efforts in 
Chad. In Somalia, actually, they are doing quite a bit of work 
with local organizations. Part of the issue is we don't always 
know what they are doing, and a big issue is trying to sort of 
help them to understand the need to cooperate, with the 
coordination systems that other international donors work with 
in.
    So we have a cooperation now with the Organization of 
Islamic Cooperation to build their networks. They have asked 
for training. They want to understand the system better and 
work with us more closely. So that is a critical aspect.
    And on the first part of your question, trying to address 
those psychosocial needs are so important. Actually, there is 
an interagency group called the Atrocity Prevention Board. 
Maybe you have heard of it, chaired by the NSC and involving a 
number of U.S. agencies in helping us to make sure that that is 
an important aspect in all these situations, looking at our 
U.S. Government efforts and making sure that we are doing that. 
This has helped us to get support for those kind of efforts in 
CAR and in other countries, and to marshal our resources and 
efforts in a coordinated fashion across the interagency.
    Mr. Cicilline. So if I could just follow up on Ms. Bass' 
question with respect to the psychosocial services. I mean, we 
have spent a lot of time focused on the necessities of food and 
water and shelter, but would you speak a little bit about the 
unmet need as it relates to more of the kind of counseling and 
mental health interventions and psychosocial services because--
particularly children are coming from horrific unspeakable 
experiences of violence, and feeding them and being sure they 
are housed and have clothing is a base, but there are obviously 
huge needs. Would you speak a little bit about what the level 
of unmet need is in that area and what we could be doing 
better?
    Mr. Staal. That is such a critical question. In any 
disaster situation, people become more vulnerable to all kinds 
of predators, to--vulnerable to a number of protection issues, 
especially women and children. But, unfortunately, one of the 
phenomenon of the recent events in Africa, as I mentioned, is 
more related to sectarian and ethic violence and terrorist 
violence rather than just natural disasters. And we are finding 
that those issues of atrocities, especially against women and 
children, are worse than ever, and so we are having to increase 
our efforts. That is why, as I mentioned, all of our OFDA 
grants include protection as a feature of what we are trying to 
do, especially counseling for children who have been affected.
    UNICEF is the main provider there, but Save the Children, 
obviously, and other organizations that we work with. Gender-
based violence is such a huge problem. We are seeing in South 
Sudan, you have probably seen some of the U.N. reports and so 
on that it seems to be done not just drunken soldiers, but 
really a systematic process of atrocities. I think we saw that 
years ago in the Balkans as well. And when you have these kind 
of sectarian or ethnic issues, it becomes even worse.
    Ms. Wiesner. I would add in terms of the question of unmet 
needs, that I think one of the areas where we have really seen 
some ground lost is in the inclusion of education services for 
all ages of children, preschool, primary, and secondary 
education, when they are in situations of displacement, when 
budgets are stretched, and as you said, the focus tends to then 
go toward very, very basic lifesaving activities, education 
doesn't always make the cut. And that is really something that 
I think is disheartening to the humanitarian organizations 
themselves. They want to be able to provide those services. 
They know the importance of it for everything from psychosocial 
support to the future for these populations for the countries 
that they come from, education is critical, and I would 
certainly put that in the category of one of the often unmet 
needs.
    Mr. Cicilline. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Smith. Just a couple of follow-up questions. On the 
question that I posed earlier about Chad, again, Ann 
Hollingsworth makes an impassioned plea, including in her 
recommendations that donors and WFP must immediately increase 
food rations to 2,100 kilocalories per day for vulnerable 
Sudanese refugees, until such time as assistance can be 
adjusted in line with region-wide households, economic 
assessments. And, again, she talks about having just been there 
along with Michael Boyce, her colleague, and I am wondering 
what we are doing vis-a-vis that situation, if you could be 
specific?
    Secondly, you mentioned, Mr. Staal, about the Atrocities 
Prevention Board, and, of course, the international community, 
including and especially the United States and the U.N. missed 
it with Rwanda when the genocide could have been mitigated, 
maybe even stopped, years ago. Infamously missed it. The famous 
facts. I held hearings on it at the time, and soon thereafter.
    Yesterday I had a bill on the floor on Srebrenica, and I 
actually had the translator at one of my hearings in the 1990s 
who was there when the Dutch peacekeepers gave over to Mladic 
the okay to take out some 6,000 Muslim men, and 8,000, of 
course, were slaughtered within a 4-day time period, and the 
20th anniversary for that, as we all know, is on July 11, and I 
have been to re-interment ceremonies at Srebrenica, moved to 
tears by the families who lost loved ones, who were butchered 
and killed simply because they were Muslims. It was genocide. 
And that is what our resolution reiterated again yesterday.
    But it brings me to your point, Mr. Staal, about the 
Atrocities Prevention Board, which sounds good and may be doing 
a wonderful job, but as we all know, according to UNHCR, in the 
2014 Global Trends report in the past 5 years, at least 15 
significant conflicts have started, or re-ignited worldwide. 
And eight of those have been in Africa, as you know, and both 
of you know so well. And I am wondering, you know, what role 
the Atrocities Prevention Board is playing. We are planning a 
hearing to hear about that sometime in the latter part of 
September. We will ask them to give us a sense of what kind of 
day-to-day work they do. But maybe you could shed some light on 
that.
    And finally, the TIP Report. As you may know, I am of the 
author of the Trafficking Victims Protection Act of 2000 which 
created our strategy, our landmark effort to prevent, 
prosecute, and protect, protect the victims, of course. The TIP 
Report is a month late, and I am always worried when it is 
late, because it may be because Secretary Kerry broke his leg 
and wants to personally unveil it. And he is a little busy in 
Iran.
    But, again, there are multi-taskers and there are people 
who could take--I am always worried, especially with regards to 
this hearing, every refugee camp, IDP camp I ever go to, I ask 
questions about trafficking and what is in place to ensure that 
no young girls or boys, or women, even, in their 20s or 30s are 
trafficked into a horrible outcome. And I am wondering if you 
could speak to that effort, because I know you are doing much 
on it. You always do. But just if you could elaborate and 
provide some insights to the subcommittee, particularly with 
all these new IDPs and refugees.
    And before that, I do want to note that Albert Puela is 
with us today. He is Member of Parliament from the DR Congo. I 
met Albert on our way to Goma several years ago looking into, 
you know, the peacekeeping effort there. But Albert is a Member 
and he won reelection, and Albert, thank you for joining us.
    Please, if you could answer the----
    Ms. Wiesner. Yeah. I will say a few words about Chad and 
then turn it over to Tom who has been there. It is an excellent 
report from Refugees International, I think, because it lays 
out the challenges. Chad is a somewhat unique situation. 
Sometimes it is politically sensitive to promote self-reliance 
of refugees, because it raises questions about land access, the 
right to work, vis-a-vis local populations, and a host of other 
issues. In Chad, the government is actually quite keen for 
refugees to become self-reliant, and it is more a challenge of 
the environment, the development funding, the development 
actors. So it is important also to recognize that some of these 
protracted issues are very context-specific in terms of what 
the solutions are.
    On trafficking, thank you for asking those questions, every 
time you go to camps because we ask the same ones. And it is 
certainly part of the protection role of UNHCR and other actors 
who work there to ensure that children and vulnerable 
populations are not trafficked out of camps, are not recruited 
into armed groups, and any number of other threats that could 
face them. So thank you for raising those questions when you do 
travel.
    Mr. Staal. Thank you very much. As I mentioned, I was in 
Chad a few months ago and visited a couple of places around the 
country, including the southern area where the refugees were 
coming across from the Central African Republic. Chad remains, 
actually, a pretty large beneficiary of our Food for Peace 
Program. We have been putting normally over $50 million a year 
worth of food aid there and some other humanitarian assistance. 
And we continue to stay committed to that. So that is going to 
be important. But as you say, at some point, the refugees need 
to find a way to either go back home, but if that is not 
possible, to find a way to become part of the local economy.
    The Atrocities Prevention Board, what we have been able to 
do is then bring all the U.S. agencies together to focus on an 
issue. So, for instance, in the CAR, where we don't have a 
USAID mission, we were able to get support for some of our 
conflict prevention and youth engagement programs working with 
faith-based organizations. We got support for that across the 
interagency, and then were able to use some of the funds that 
were generously provided by Congress for a country where we 
don't normally have an aid program.
    In Burundi in 2013, we saw that this was going to be a 
difficult place and that things were not going in the right 
way. So, again, we were able to put in additional resources 
there toward things like youth engagement especially, some 
civil society support, and help with developing their election 
system. Now, that doesn't mean you won't have a guy who is 
going to try to run for president even though--the term limit 
issue. But the technically the election system is working much 
better.
    So those kinds of things with the Atrocity Prevention 
Board, we are able to get support to do some of those kind of 
things that we think are critical.
    Mr. Smith. Thank you.
    Mr. Clawson.
    Mr. Clawson. Sorry I was late. We get to be double-booked 
here, so sometimes it is hard to get everywhere at once. So I 
am sorry I missed your opening. Certainly no disrespect in any 
way.
    I want to ask a general question, and then I will let you 
all continue with the train of thought that you have had here. 
When I think about Africa, all the displaced because of these 
wars, because of dictators, layered in with all the disease and 
other things that we have to fight with, and then masses of 
people heading north, and we see them, you know, you go to 
northern Spain, you see them in the plaza. I mean, you see them 
everywhere. Right? Because folks are trying to get where they 
are safe and can eat. We all understand that.
    And, but we are Americans. We are way over here. USAID, you 
know, is on site. State Departmentis working. Do we have 
influence to change the course here? I mean, on a general 
level? Are we secondary to Europe here, or can we really play 
the lead and can we get the herd moving in a different 
direction, or are we just fighting to tread water? Does my 
question make sense to you all? Is this winnable, or do--or is 
this winnable only by the Europeans, I guess?
    Ms. Wiesner. So we did address this a bit, and I think the 
first----
    Mr. Clawson. And I apologize for the repetition.
    Ms. Wiesner. That is okay. No, the first thing to say is 
that migration has existed forever, and will continue to do so. 
I think what is so concerning today is the scale, the nature of 
that migration, the number of deaths that we are seeing. We 
learn about the deaths when we know about boats drowning in the 
Mediterranean. There are also people dying in the desert before 
they ever get to the shores of Libya, and we don't see a lot of 
that.
    I was in Niger recently, and there is a town in the north 
of Niger called Agadez, where the International Organization 
for Migration predicts 100,000 people will move through that 
town this year on their way to Libya. And this is an 
impoverished country that is already hosting refugees from 
Nigeria and Mali, and is now sort of the target of attention 
from Europe and elsewhere as a very important transit point. It 
has, again, historically, throughout the years, been an 
important crossroads for trade and migration. And, in fact, 
west Africa has freedom of movement. So it is not illegal to 
travel to Niger. What is illegal is to be smuggled into Algeria 
or Libya and then across the Mediterranean. So all this to say 
it is a very complicated challenge, and certainly those whose 
are fleeing from war and persecution need to be able to do so 
and need to be able to find protection.
    I think what some of our investments do, and can do, and do 
do, is improve the situation for people in their home countries 
and in their countries of first asylum. When people leave 
Eritrea for Ethiopia, they should have some opportunity to make 
a life for themselves and we have worked very hard on improving 
the conditions of camps there. The option to travel across the 
sea should not be the only one that they see for themselves.
    But you also, when you interview those migrants, find that 
some of them are paying huge amounts of money, actually, to 
take those journeys. They are saving up thousands and thousands 
of dollars to be able to take that risk on behalf of their 
families.
    Mr. Clawson. Can I jump in just for a second. Do the 
Spaniards, French, and Italians, among others, see it the same 
way as what you just explained?
    Ms. Wiesner. Well, the European Union is a collection of 
member states, and we--so I think you have, you know, a very 
wide range of views within the European Union. There are 
certain states that are quite generous in accepting refugees 
for resettlement that provide great benefits to those who 
arrive in their countries, and others who have different 
policies. We do have a policy dialogue with the European Union. 
We call it the Platform on Refugees, Asylum, and Migration, 
where we get together regularly to discuss at the diplomatic 
and the policy level, and compare notes.
    We are also a destination country for migration here in the 
United States, and it is a different set of conditions and a 
different, you know, group of people that are seeking to reach 
the United States. But there are some similarities in figuring 
out how you can appropriately secure your borders, but also 
allow those who are seeking protection to have the opportunity 
to do so.
    So we are engaged in dialogue with the European Union, but 
we also see that there is a certain prerogative that they have 
to address this situation. We do urge always that they work 
with the U.N. Refugee Agency, with the International 
Organization for Migration, and other groups that can assist 
them with best practices in handling migration challenges.
    Mr. Staal. Thank you, Mr. Clawson. Part of the issue that 
we are trying to address from the USAID side is the root causes 
of the migration. You are not going to stop everybody. As 
Catherine was saying, migration and refugees have gone on 
forever. But a lot of those drivers of the displacement are 
rooted in the local community. Sometimes it is economic. It is 
political. It is violence. It is a number of other things. So a 
lot of our programs are trying to help with conflict 
mitigation, and again with youth engagement. A lot of it 
involves young people who are not finding jobs. So partly, it 
is to give them a sense of hope that there is something going 
on.
    And, you know, that is economic issues and so on. It is 
also good governance. What we are finding is most of this 
displacement happens from fragile states. And the way we define 
fragility is, number one, the ability of the government to 
provide services, whatever it is supposed to provide, 
everything from electricity and water and schools and security. 
But it is also the legitimacy and the credibility of the 
government. It is those two factors.
    So a huge part of our program is to try to address those 
drivers of fragility that will then hopefully reduce the lure 
of extremism and the desire for people to leave and find 
something else.
    Mr. Clawson. So if leadership is not trustworthy and 
equitable, which means opportunity for everyone, then we are 
really fighting an uphill battle here, and when the rich get 
everything and everybody else gets nothing, then why stay? But 
what I hear you saying is, you know, we are working at 
humanitarian level and a governance level, and what I am saying 
is if the Europeans don't get in the game on that, then it just 
feels like a long putt for Americans to solve problems, and I 
am, on how you all describe the issues, having been to a lot of 
these countries, I think I agree, and certainly admire what you 
all do, and the kinds of sacrifices your folks make for this 
region.
    Mr. Staal. Thank you very much. It continues to be an 
issue, but the Europeans are involved. Right after this hearing 
I am heading up to New York to meet with the Brits and the EU 
and several of the other Europeans, in this case specifically 
about Yemen, but a similar issue, and we meet regularly about 
issues in Africa as well. So they are involved.
    Mr. Clawson. Are they doing their fair share?
    Ms. Wiesner. What I was going to add, we are certainly the 
lead humanitarian donor in the world. I oversee our 
international migration policy office at PRM, and in these 
dialogues that we have had over the last few years with the 
European Union, I think what we have seen is that other parts 
of the Commission that have responsibility for home affairs, 
for immigration policy, have started to realize that their 
investments in Africa and other sources of migration need to go 
beyond just law enforcement, and address some of the same root 
causes that Tom was talking about.
    And that is what has been really interesting, and, you 
know, there was a $1 billion trust fund recently established by 
the European Union, and when I talked to the head of their 
mission in Niger and said: Is this going to go beyond just 
counter-smuggling and trafficking, which is important, to 
address some of the root causes and create opportunities for 
people in their home countries, they said that is certainly the 
intent.
    So I think you are seeing an evolution in the thinking, 
too, as the problem has gotten so much larger and more visible 
to really try to understand the complexity of it and realize 
that it requires more investment on various fronts.
    Mr. Clawson. Thank you for letting me have so much time. I 
yield back.
    Mr. Smith. Thank you, Mr. Clawson.
    Ms. Bass.
    Ms. Bass. Thank you.
    You know, sometimes I don't feel like we put enough 
pressure on the EU. Because if you are going to talk about root 
causes, I mean, you are talking about their former colonies. 
And they have a level of responsibility to this, and they don't 
step up enough. And it seems like, to me, we need to put a 
little extra pressure.
    Anyway, I neglected to ask about African refugees who have 
been going into Israel. And I wanted to know, one, if you could 
speak to that and to what extent we are working with the 
Israeli Government.
    I was recently in Israel in May, and, at that point, when I 
was there, it was an issue. And I am not referring to 
Ethiopians. I am referring to other African countries where 
there is a growing refugee problem in Israel and how we might 
be working with the Israeli Government around that.
    Ms. Wiesner. Sure. Yes. So, previously, we had been quite 
focused on the situation of sub-Saharan Africans moving through 
the Sinai to Israel and how they were both treated in the Sinai 
and received in Israel. When a wall was built on that border, 
that particular phenomenon has subsided somewhat.
    But we have continued to receive reports and express our 
concern to the Government of Israel about the treatment of sub-
Saharan Africa asylum seekers in Israel. Both the detention 
practices as well as the accessibility of the asylum system are 
two things that have been part of an ongoing dialogue with that 
government.
    Ms. Bass. What countries are they coming from, and how are 
they held? I mean, I have seen a couple of photographs, but I 
don't know much about it. It is not talked about very much. 
There is not a lot of news coverage about this.
    Ms. Wiesner. My understanding is that it is a lot from the 
Horn of Africa--Somalis, Ethiopians, and Eritreans, among 
others.
    Ms. Bass. And do you know in what kind of situations they 
are in? Do you know what I mean? Is it a camp? Is it like an 
IDP camp? Or what is the physical setting? And do you have any 
idea on the numbers?
    Ms. Wiesner. We will definitely get back to you with the 
numbers.
    [The information referred to follows:]
Written Response Received from Ms. Catherine Wiesner to Question Asked 
             During the Hearing by the Honorable Karen Bass
    According to the Population and Immigration Authority (PIBA) of 
Israel's Ministry of Interior, as of April 1, 2015, Eritrean and 
Sudanese nationals constituted 92 percent of the 45,711 individuals 
seeking asylum and refugee status in Israel. These individuals have 
been classified in official Israeli government documents as 
``infiltrators''. Of these, 33,506 (73 percent) are from Eritrea, while 
8,637 are from Sudan (19 percent). In addition, there are 2,984 
individuals from the rest of Africa; their countries of origin are not 
delineated by PIBA, but past groups seeking protection in Israel have 
includes those from the Cote d'Ivoire and the Democratic Republic of 
Congo.

    Ms. Wiesner. Most migrants and asylum seekers live in 
cities. There aren't really camps. But there has been a problem 
of detention of----
    Ms. Bass. So maybe that is what I am referring to, because 
what I saw was not a city.
    Ms. Wiesner. It was probably one of the detention 
facilities.
    Ms. Bass. Okay.
    Thank you.
    Mr. Smith. I do have one final question. When it comes to 
U.N. humanitarian appeals, UNHCR appeals and the like, have you 
detected any diversion of prioritization for African crises, 
especially with Syria, Iraq, ISIS, Yemen? And you will be 
talking about Yemen at the U.N. very shortly. Is that diverting 
money and prioritization away from these other crises? Is there 
a relative loss of capacity because of that?
    Mr. Staal. That is a difficult question. I don't know that 
I have seen diversion, but, certainly, the multiplicity and the 
demands across the world are having an impact everywhere. But I 
haven't seen that they are getting a higher percentage of their 
appeals than other countries. But it is a huge demand across 
the world.
    Mr. Smith. But even as those appeals are formulated--and I 
have had conversations with UNHCR for 30 years on this, over 30 
years--they have a need, but they also do an expectation about 
what they think they might be able to get, rather than just 
going with the need, and then if they fall short, at least they 
tried for what they truly needed.
    So I do worry that we never know what the real calculation 
would have been had it been all needs-based, I would just say.
    Mr. Staal. I know that is an important factor that we have 
to look at.
    Ms. Wiesner. Yeah, we have also had this dialogue on going 
with UNHCR, and they do now do needs-based budgeting, so there 
is a sense of, you know, what the full scope of the needs are 
against what they are receiving.
    But you are right; because they don't ever receive the full 
amount that they feel they need, they have to make decisions 
about what to allocate to different country operations, and 
that can be hard. It is why they appeal for as much flexible 
funding as possible, to be able to balance out between 
different areas.
    Mr. Smith. Thank you.
    Anything else you want to add?
    If our subcommittee could be of any help, please let us 
know, and we will do our level-best.
    Mr. Staal. Thank you very much.
    Ms. Wiesner. Thank you very much for this hearing. Thank 
you.
    Mr. Smith. Thank you.
    I would like to now welcome our second panel to the witness 
table, beginning with, first, Mr. John Stauffer, who served 
with the Peace Corps in Eritrea from 1966 to 1968, teaching 
English and science to rural middle school students there. In 
2003, after the worst of the repression within Eritrea, he 
joined with one of his star Peace Corps students, who was an 
asylee, and founded a group called The America Team for 
Displaced Eritreans, which was established in 2010. He now 
assists Eritrean refugees and asylum seekers in the U.S. and 
around the world through resettlement services, policy 
advocacy, and lifesaving interventions.
    We will then hear from Ms. Ann Hollingsworth, who joined 
Refugees International in January 2014. In her role as senior 
advocate for government relations, she leads Refugees 
International's advocacy efforts within the U.S. foreign policy 
community. Previously, she represented the International Crisis 
Group at Washington policy audiences. She provided political 
and strategic analysis and covered all crisis group areas of 
reporting, with primary responsibility for advocacy and 
research for the Africa portfolio. She has been a panelist at a 
variety of foreign policy events, including with the State 
Department, Brookings Institution, and the Tom Lantos Human 
Rights Commission. She also served in the office of U.S. 
Senator Ernest Hollings.
    We will then hear from Ms. Natalie Eisenbarth of the 
International Rescue Committee, who is a policy and advocacy 
officer at the IRC, based right here in Washington. In this 
capacity, she leads IRC's policy and advocacy toward the U.S. 
Government on issues related to the organization's work in sub-
Saharan Africa. Ms. Eisenbarth focuses specifically on 
humanitarian responses in South Sudan, Central African 
Republic, Somalia, and Kenya. She has completed research and 
factfinding missions in South Sudan, CAR, DR Congo, Kenya, 
Liberia, Sierra Leone, and Mali. Prior to joining the IRC, she 
worked at InterAction, facilitating its policy advocacy on 
international humanitarian missions.
    Ms. Bass. May I say a word?
    Mr. Smith. Sure. I yield to Ms. Bass.
    Ms. Bass. Thank you.
    I just wanted to acknowledge that we have been joined by 
Nokuthula Sithole. She is Miss South Africa USA, and she is 
running for Miss Africa USA. I just wanted to acknowledge her 
being here.
    Thank you.
    Mr. Smith. And we are joined by Congressman Mark Meadows of 
the subcommittee.
    Mr. Meadows?
    Mr. Meadows. Mr. Chairman, thank you for your leadership on 
this effort and continuing to highlight what for many of us is 
just an unbelievable travesty and difficult thing to swallow. I 
mean, I know for me and my family this particular issue has 
been something that dates back some 25 years. And so I just 
fully support you, not only in this effort, but thank each of 
the witnesses for being here.
    Certainly, your testimony goes a long ways to touching even 
children. Both my son and my daughter getting involved really 
came from hearing compelling testimony that happened right here 
on Capitol Hill many years ago. And so, hopefully, young people 
will get engaged and continue to fight for those that, many 
times, they can't fight for themselves.
    So thank you. Thank you, Mr. Chairman. And look forward to 
your testimony.
    Mr. Smith. Mr. Stauffer?

STATEMENT OF MR. JOHN STAUFFER, PRESIDENT, THE AMERICA TEAM FOR 
                      DISPLACED ERITREANS

    Mr. Stauffer. Thank you, Mr. Chairman and subcommittee 
members and staff, for conducting this important hearing, and I 
am honored to participate today.
    Again, I am John Stauffer. I am president of The America 
Team for Displaced Eritreans, which is a small, U.S.-based 
nonprofit that assists refugees and asylum seekers from 
Eritrea, located in northeast Africa. We maintain a Web site at 
EritreanRefugees.org.
    Many years ago, I was a teacher in Eritrea with the U.S. 
Peace Corps. And now, for the past 11 years, I have, along with 
other team members, assisted Eritrean refugees fleeing acute 
oppression and abuse in their country. I can also speak toward 
the situation as it stands in Israel.
    As part of our work, we seek assistance and protection for 
individuals or groups of refugees in dangerous situations when 
we are contacted by victims or their relatives. We have helped 
refugees in at least 15 different countries in Africa and 
elsewhere. We operate by alerting and then working closely with 
UNHCR, pertinent local NGOs, local government officials, or 
other Eritreans, any of whom may be able to help the refugees 
on an urgent basis. We also assist Eritrean refugees who are 
here in the United States.
    Eritrea is a police state, often referred to as the North 
Korea of Africa. On June 8 of this year, the U.N. Human Rights 
Council released a 480-plus-page report on human rights 
offenses conducted in the country since independence in 1993.
    In Eritrea, there is extensive, abusive, essentially 
unpaid, endless military conscription, often characterized by 
survivors as slave labor. Soldiers accused of any infraction or 
dissatisfaction are often tortured. There is total lack of 
basic human rights, almost no freedom to worship or to 
congregate, no free speech, and no public media. There is 
ongoing surveillance, threats, and intimidation and abuse of 
the families of those who flee the country. And there is acute 
and extensive torture of those who are imprisoned.
    So it is no wonder that, as a consequence of those 
conditions, thousands of citizens, mostly young people and 
often unaccompanied children, flee the country every month. 
Initial destinations of flight from Eritrea include Ethiopia to 
the south, where about 100,000 Eritrean refugees now reside, 
primarily in refugee camps, most surviving with little to do 
and no hope for the future, and Sudan to the west, where there 
are also refugee camps, plus many urban refugees. Here, life is 
equally hopeless, and kidnappers and human traffickers lie in 
wait.
    Sudan, in particular, is often the starting point for new 
and horrific ordeals. Eritrean security police operate freely 
in eastern Sudan and in Khartoum and seek out and haul back to 
Eritrea high-value targets such as government officials and 
military officers who have sought refuge. The refugees may be 
kidnapped and extorted locally for a few thousand dollars or 
taken off to Egypt or Libya, where they are abused.
    In 2007, Eritreans were paying smugglers to move them 
across Egypt to the Israel border, where thousands entered with 
the hope for asylum. But, by 2009, a system of human 
trafficking developed, not for servitude, but for the purpose 
of torture, for extortion of huge amounts of money. Groups of 
refugees would be either double-crossed by their paid smugglers 
or be kidnapped in Sudan and then be trucked into Egypt and 
sold to rogue Egyptian Bedouins and end up in torture camps in 
northern Sinai.
    The refugees would be tortured continuously and mercilessly 
to extract ransom from their impoverished families in Eritrea 
or in other countries. As torture, molten plastic from burning 
bottles and bags would be dripped onto bare skin, causing 
excruciating pain. Victims were tied and left on the ground 
under the blazing sun. They were burned with cigarettes and 
electroshock. Women were continually raped, often gang-raped, 
and men were raped as well. Victims were threatened with 
extraction of body parts.
    The victims were forced to call relatives by cell phone, 
and then they were tortured while on the phone so their 
relatives could hear their screams. The torture business became 
more lucrative, and typical ransoms grew from a few thousand 
dollars to at least $30,000 per person. Relatives who managed 
to raise the funds became impoverished for life.
    When the Morsi government in Egypt fell in 2013, the 
Egyptian Army restored its presence in northern Sinai, and the 
atrocities against the Eritrean refugees abated there.
    We learned recently at a conference in Geneva with UNHCR 
that 7,000 Sinai torture survivors are presently in Israel. But 
kidnapping, extortion, and torture of Eritrean refugees 
continue to occur in Sudan, Libya, and possibly other parts of 
Sinai. Still, there seems to be little governmental effort in 
Sudan and Libya to stop it. To the contrary, corrupt security 
officials often know of the traffic and torture yet look the 
other way.
    Finally, tragically, many Eritrean refugees are torture 
survivors, from their time in Eritrea or from the period of 
their flight or both.
    Thank you, Mr. Chairman, again, for considering these 
observations.
    [The prepared statement of Mr. Stauffer follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much, Mr. Stauffer.
    Ms. Hollingsworth?

    STATEMENT OF MS. ANN HOLLINGSWORTH, SENIOR ADVOCATE FOR 
          GOVERNMENT RELATIONS, REFUGEES INTERNATIONAL

    Ms. Hollingsworth. Thank you.
    I would like to take this opportunity to thank Chairman 
Smith, Ranking Member Bass, and the members of this 
subcommittee for holding this important hearing today.
    Refugees International, or RI, is a nonprofit, 
nongovernmental organization that advocates for lifesaving 
assistance and protection for displaced people in some of the 
most difficult parts of the world. Based here in Washington, we 
conduct 12 to 15 field missions per year to research displaced 
populations. RI does not accept any government or United 
Nations funding, which allows our advocacy to be impartial and 
independent.
    I am here today to describe the current situation for the 
longstanding Sudanese refugees in Chad. My colleague Michael 
Boyce and I went to Chad in May and June of this year, visiting 
the capital of N'Djamena and then to the east to meet with 
refugees, host communities, humanitarians, development actors, 
and government officials. Our new report, released today, goes 
into greater detail of RI's key areas of concern: Food ration 
cuts, as the chairman addressed earlier; and a self-reliance 
approach, with little funding or leadership.
    Given the topic of today's hearing, I think the Sudanese 
refugee crisis underlines two major challenges that we see 
today in many parts of Africa. The first is that the most basic 
needs of too many vulnerable families are not being met, in 
large part because humanitarian funding has not kept pace with 
historic levels of demand worldwide. The second is that 
protracted displacement is not just a humanitarian problem; it 
is a development problem. Yet development actors are still 
reluctant to provide the leadership, coordination, and 
multiyear funding that could give displaced people a chance at 
long-term self-reliance.
    The Sudanese refugee population in Chad is an underreported 
story, a hard thing to imagine 10 years ago when the Darfur 
crisis took center stage. The essential humanitarian support 
that both United States and the U.N. refugee agency, or UNHCR, 
has given to this refugee population over the years is well-
documented, but there are currently 360,000 Sudanese refugees 
in Chad struggling to survive in a harsh environment with few 
opportunities available for them or for their host communities.
    In early 2014, the World Food Programme, or WFP, made a 
dramatic 50-percent cut--up to 60 percent in some areas--in 
food rations for Sudanese refugees in Chad, from the previous 
allotment of 2,100 kilocalories a day to around 800.
    We saw firsthand the effect of these cuts at a food 
distribution inside Am Nabak refugee camp. Both refugees and 
aid workers told RI that refugees, particularly women and 
children, had responded to the cuts with worrying coping 
mechanisms. Women RI spoke with left camps to find what little 
work they could, often farming or making bricks. Sometimes 
these trips would last for days or weeks at a time, with 
children being taken out of school to work or to care for their 
younger siblings while their parents were gone. An operational 
NGO worker that RI spoke with noted an increase in cases of 
sexual violence and exploitation against the Sudanese refugee 
women since the ration cuts began. It was clear that the 
consequences of food ration cuts for the most vulnerable 
households have been unacceptable, and an immediate increase in 
food assistance for these households is absolutely essential.
    In the longer term, WFP and UNHCR are in the process of 
executing a new approach to food assistance for Sudanese 
refugees, one in which aid is targeted on the basis of need. 
The two agencies are conducting economic assessments that will 
divide households into four groups, from very poor to better 
off. Full rations would only be provided for poorer households, 
roughly 60 percent of all refugees, according to preliminary 
data. Wealthier households would receive more limited amounts 
of food or nonfood assistance according to their means. U.N. 
officials project that the transition of this approach will be 
completed by the end of 2015.
    But, at the same time, these cuts are occurring as the 
humanitarian community in eastern Chad has begun to move toward 
a self-reliance approach for the Sudanese refugees. This 
approach involves giving refugees opportunities to support 
themselves financially, trying to strengthen ties between 
refugees and their Chadian neighbors, and incorporating the 
refugees into Chad's domestic, health, and education systems.
    In principle, this transition is laudable. However, in 
eastern Chad, the transition faces a major and potentially 
fatal obstacle. The communities that refugees are meant to join 
are some of the poorest in the world, with extremely weak 
institutions, markets, and social services. In the words of one 
humanitarian, ``Everybody is talking about socioeconomic 
integration, but how do you integrate refugees into an area 
where people are starving?''
    Humanitarian organizations like UNHCR do not have the 
staffing, the funding, or the mandates to fix these problems. 
Development donors and organizations do, yet they are virtually 
nonexistent in eastern Chad. That is the reality on the ground.
    In refugee-hosting areas, donors and development agencies 
must prioritize efforts to improve water management, 
agricultural inputs and techniques, land management and dispute 
resolution, and women's empowerment.
    So the way forward: Donors and the WFP must immediately 
increase the food rations, and I think we covered that earlier.
    Secondly, donors, including USAID and the World Bank, 
should provide dedicated funding to development and resilience 
initiatives in eastern Chad that benefit both the Sudanese 
refugees and Chadian host communities.
    And just as a sidenote, I appreciated Acting Assistant 
Administrator Staal recognizing the delegation visit of 
November trying to pull in more Middle East donor dollars. And 
that was great to hear, but obviously we have a long way to go.
    Finally, UNHCR should freeze its budget for core refugee 
protection and assistance in eastern Chad. Further cuts should 
only be considered once refugees begin receiving long-term 
support from development actors.
    In conclusion, I left Chad with profound stories and images 
of Sudanese refugees, both of despair and of strength. I 
listened to a female refugee who grabbed my hand to tell me 
about her struggles to find resources to take care of her 
mother and the three orphaned children in her home. I heard 
many stories about fears for their future, including how they 
will find enough food to eat. The vulnerabilities of this 
population are very real, and the international community must 
return the spotlight to them now.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Ms. Hollingsworth follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Smith. Ms. Hollingsworth, thank you so very much for 
yours.
    And, Ms. Eisenbarth, if you could proceed. I am going to 
step out for a moment, and I apologize. I have read your 
testimony, so----
    Ms. Eisenbarth. Great. Thank you.
    Mr. Smith. Mark Meadows will take it. There is a briefing 
on Srebrenica, which, again, had a resolution on the floor, but 
I will only be about 10 minutes. And I have a lot of questions 
for you folks. But my distinguished colleague can do a better 
job.

STATEMENT OF MS. NATALIE EISENBARTH, POLICY & ADVOCACY OFFICER, 
                 INTERNATIONAL RESCUE COMMITTEE

    Ms. Eisenbarth. On behalf of my organization, the 
International Rescue Committee, I would like to thank Chairman 
Smith, Ranking Member Bass, Mr. Meadows, and members of the 
subcommittee for holding this hearing.
    I would like to request that my written testimony be 
included in the record.
    Mr. Meadows [presiding]. Without objection.
    Ms. Hollingsworth. Thank you.
    The International Rescue Committee, or the IRC, is a global 
humanitarian NGO with a presence in 22 cities in the U.S. and 
40 countries worldwide, nearly half of which are in sub-Saharan 
Africa.
    The topic of today's hearing, displacement, is at the very 
core of the IRC's mission. We provide emergency relief and 
postconflict development and help people uprooted by conflict 
and disaster to rebuild their lives. We share the 
subcommittee's deep concern about the safety and security of 
people who have been driven from their homes.
    Displacement, whether in one's own country or across 
borders, leaves affected persons particularly vulnerable to 
economic shocks, at risk of human rights violations, without 
access to basic services, and often puts their physical safety 
in jeopardy.
    The Internal Displacement Monitoring Center estimates that 
in 2014 in sub-Saharan Africa at least 4.5 million people were 
newly displaced within the boundaries of their own countries. 
The U.N. Refugee Agency, UNHCR, estimates that nearly 760,000 
people became new refugees.
    The majority of these new refugees and IDPs became 
displaced as a result of conflict. The circumstances of 
conflict-induced displacement often take years to resolve, as 
the subcommittee and Mr. Smith noted before. As the average 
length of displacement reaches 17 years, we must make a renewed 
commitment to help people not only survive in the midst of 
displacement but to regain control of their lives and thrive.
    U.S. support for assistance to displaced persons typically 
comes through the main international humanitarian assistance 
accounts: The International Disaster Assistance account for IDP 
assistance, the Migration and Refugee Assistance, and Emergency 
Refugee and Migration Assistance accounts for refugees. 
Alongside other accounts for food assistance and support for 
international peacekeeping, these accounts are the backbone of 
U.S. support for displaced persons. Congress' support in 
funding these accounts is invaluable and enables the U.S. to 
save lives and prevent suffering.
    I would like to spend the majority of my testimony devoted 
to what more we can do to aid those in situations of protracted 
displacement. When people are displaced for years on end, their 
needs go beyond the essential means of survival. To respond 
better to their needs, we must address five critical challenges 
common to most protracted displacement situations in Africa.
    First, there must be a commitment to peace and the 
protection of the most vulnerable. Governments hosting refugees 
and experiencing internal displacement bear the primary 
responsibility for preserving asylum space and ensuring 
displaced persons receive protection and assistance.
    For its part, the U.S. Government must continue to be vocal 
about the importance of refugee-hosting nations keeping their 
borders open and fostering an environment that is supportive of 
protecting and assisting refugees and IDPs. We also need 
political solutions to violent conflicts in places like South 
Sudan and CAR and other countries in sub-Saharan Africa. 
President Obama's visit to east Africa later this month is a 
key opportunity to reinforce such priorities.
    Second, the response to displacement must be better suited 
to protracted situations. Assistance from the international 
community is often designed to provide the essentials of 
survival, which is challenged, as Ann noted, but saves lives. 
It does little to enable IDPs and refugees to thrive during 
what are often years away from home. The U.S. Government's 
funding and advocacy and support of efforts to increase self-
reliance--things like supporting education for children and 
young people and adults' opportunities to work in local 
economies--their very means of self-sufficiency are essential.
    Third, we must take a closer look at the traditional model 
of delivering assistance to displaced communities and formally 
recognized camps. Globally, the majority of displaced 
individuals do not reside in formal camps or collective sites. 
Instead, they are living with relatives, with friends, or 
securing accommodations on their own, often in urban settings. 
Assistance must be tailored to ensure that these refugees and 
IDPs do not fall through the cracks and receive the assistance 
they need.
    In July 2014, a year ago, the UNHCR released a new policy 
on alternatives to camps. The policy sets a vision for UNHCR 
service to refugees, recognizing that while camps are an 
important tool, they remain long after the reasons for their 
existence have passed. As it stands now, the policy does not 
incorporate how it should apply to the IDP populations around 
the world, which is a critical area for attention in the 
future.
    The U.S. Government should continue to support and enable 
UNHCR to align its practice with the vision in this policy and 
continuously adapt its own assistance to ensure it is 
reflective of the reality that most displaced communities 
reside outside camps, and it should encourage other 
international actors to do the same.
    Fourth, we must align better international support based on 
need. Displaced persons are often living in underdeveloped 
places where the host communities alongside whom they reside 
are themselves quite marginalized and vulnerable. Ann mentioned 
this with respect to the situation in Chad. Addressing the 
needs of IDPs and refugees in these settings provides a unique 
opportunity to better integrate their service provision into 
efforts to assist host communities.
    Ensuring that assistance is targeted to the displaced 
alongside host communities involves a recognition that 
protracted displacement is not simply a humanitarian issue but 
also a development problem. The World Bank now recognizes 
displacement as a development issue. Other development donors, 
including the U.S., should be encouraged to align their 
programming and funding accordingly.
    Fifth, I mentioned the critical humanitarian accounts 
previously. The U.S. must continue to provide this critical 
foreign assistance--it is a leader in providing humanitarian 
assistance around the world--and, of course, continuous 
improvements to aid delivery to make it more effective and 
efficient.
    I would like to close by highlighting two countries in 
Africa that exemplify these challenges.
    First, South Sudan, a country that is today marking its 
fourth anniversary of independence, has been in the grip of 
violent conflict since December 2013. Civilians are bearing the 
brunt of this violence and often use displacement as a survival 
strategy. Protection is paramount in this case.
    The U.S. Government must continue to advocate to the South 
Sudanese political leadership on the importance of protecting 
and assisting IDPs. Simultaneously, the U.S. Government must 
continue to support and advocate toward refugee-hosting 
countries on the importance of preserving asylum space while 
also expanding opportunities for refugees to become self-
reliant.
    Secondly, the Central African Republic. The IRC has been 
working in the CAR since 2006. In 2 weeks, we will release a 
new report with the intention of refocusing attention on the 
needs of the Central African people.
    The IRC's analysis indicates that, while the international 
narrative on CAR is one of progress and increasing stability, 
humanitarian assistance is still desperately needed. However, 
to effectively break the cycle of violence and poverty, as is 
the case in many other African countries, we must take a long-
term approach to addressing the challenges that create 
displacement while also providing the emergency assistance 
necessary to save lives in the short term.
    I appreciate your keen attention to these issues and thank 
you for your time. Look forward to questions.
    [The prepared statement of Ms. Eisenbarth follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Meadows. I thank each of you for your testimony.
    The chair is going to recognize the ranking member, my dear 
friend, Ms. Bass, for a series of questions.
    Ms. Bass. Thank you, Chairman Meadows. I really appreciate 
that.
    Ms. Eisenbarth, it might be that you hand in the testimony 
that you read, too, because I was trying to follow your 
recommendations, and I think it is different than your written 
testimony. So maybe you could leave us with that----
    Ms. Eisenbarth. Okay. Yeah. Of course.
    Ms. Bass [continuing]. You know, as well.
    Well, first of all, I just want to thank the three of you 
for what you do--for what you do and for what your 
organizations do. Because it is tremendous, lifesaving work.
    I wanted to ask you, Mr. Stauffer, you compared Eritrea to 
North Korea. And, in a way, I think one of the biggest 
differences is that everybody knows about North Korea; people 
don't know about Eritrea and what you were describing.
    And, you know, I have your testimony. The people that are 
here don't have your testimony in front of them, but you have 
included in your testimony some pretty gruesome pictures about 
torture and torture camps. And I think that, obviously, a great 
deal more attention needs to be brought to the situation. I 
think Eritrea is very isolated, and it is not talked about a 
lot. So I really appreciate you bringing it forward and also, 
just in terms of your background, the fact that you lived 
there----
    Mr. Stauffer. Yes.
    Ms. Bass [continuing]. That you were in the Peace Corps.
    Mr. Stauffer. Yes.
    Ms. Bass. So I wanted--one, you might comment on why this 
is a mystery--I don't think it is just a mystery to me--but, 
really, why Eritrea isn't talked about, why the situation isn't 
highlighted there.
    And then you also said that you had information about 
Israel that you wanted to--I wanted to give you time to do 
that.
    Mr. Stauffer. Well, first of all, the isolation is pretty 
much on purpose for the part of the regime that is in control. 
They don't care to invite in any outsiders that might observe 
what is going on or be a proponent or an agitator for 
democracy.
    There is no oil involved in Eritrea. There actually are 
security issues. They have maybe 700 miles of coastline on the 
Red Sea. But there has been, you know--there has been some 
flare-ups with the press. I have worked with CNN, with Wall 
Street Journal, and so on, and New York Times, but it sort of 
just goes away then.
    But this recent study by the Human Rights Council, the 
United Nations, is really getting people's attention. And the 
word is that it will be extended another year. I haven't seen 
that officially.
    Ms. Bass. What will be? The study?
    Mr. Stauffer. The study, the COI, which basically was a 
team of three members who interviewed people outside the 
country. They were not allowed access into Eritrea. And so they 
interviewed people who had fled the country in many, many 
different places. They were here in Washington, they were in 
London, and they went to Ethiopia, and so on. So this is really 
creating a lot of new awareness and interest.
    I can also say that our organization is just about to 
release a 1-hour documentary on the Eritrean situation. And 
that will be launched at West Chester University in 
Pennsylvania on 8/8, August 8 at 8 p.m. So, you know----
    Ms. Bass. Can you let us know--I mean, it would be--that is 
one thing, to do it in Pennsylvania. It would be another thing 
if it was known here in Washington, DC.
    Mr. Stauffer. Sure. Well, this will be the initial public 
screening, and, obviously, we would be delighted to--and we are 
planning on, you know, getting some viewership and exposure 
here in Washington. So we would welcome any help along those 
lines to make this available.
    Because we are working with some networks, we cannot put it 
up on YouTube or Vimeo or anything like that, but we can 
distribute DVDs.
    Ms. Bass. Well, the chairman said he would be interested in 
it also.
    Mr. Stauffer. Okay. Well, we will let Greg know, then, as 
soon as we are ready with that.
    With respect to Israel, it is quite a story, actually. As I 
had mentioned initially around, like, 2007, Eritreans were 
purposely going to Israel. They were paying people to take 
them, drop them at the border, and they would go in and say 
this will be a nice life.
    And, for a period of a couple of years, it went well, and 
they were fairly well accepted, but then the numbers increased 
and increased. And then, of course, the bad guys got involved, 
with the torture and so forth, and were dropping people at the 
border after they finished and got their money.
    And so----
    Ms. Bass. They were dropping torture victims?
    Mr. Stauffer. Yes. Yes. If a victim was tortured and then 
paid--and this is a whole other story. How do you pay $30,000--
--
    Ms. Bass. Right.
    Mr. Stauffer [continuing]. And this is a network where 
funds--the way it would work is that the refugee was handed a 
cell phone. ``Call your relative, and give the relative this 
phone number. And we want $30,000 from you, okay? So when your 
relative has the money, they need to call this number, and then 
they will get another number, and you will find a place where 
you can send the money. And don't try any funny stuff or the 
guy in the camp is going to be killed.''
    So then the money would be sent. Most of the money went to 
Israel, some went to Eritrea, some went to Sudan, some in the 
United States, some was processed through Washington. And it is 
unclear where all of the money was going, but there was a lot 
of it. And we are afraid that a lot of it was going to fund 
terrorism. As you may know, Eritrea is a state sponsor of 
terrorism, and we know that they have trained Somali 
individuals who are bent on terrorism.
    So, anyhow, once they paid, they would be dropped at the 
border with Israel. If they didn't pay, they would either be 
forced to continue to do slave labor in the camps or they would 
be killed, or a lot of people were saying--and I have some 
evidence here--that there were organs removed from the 
individuals, which was fatal.
    So, anyhow, the numbers in Israel began to grow and grow, 
and Israel never was wanting to accept them as true refugees 
and to assimilate at all into the society. So Israel banned 
UNHCR from doing RSD----
    Ms. Bass. What is RSD?
    Mr. Stauffer. It is refugee status determination.
    And they said, ``Well, we will do it,'' Israel will do it. 
So the numbers continued to accumulate. So the peak population 
in Israel was about 50,000 refugees. Thirty-five thousand were 
Eritreans, and the balance, most of them were Sudanese and some 
South Sudanese.
    So UNHCR had a presence there, but they weren't allowed to 
do RSD.
    And then, finally, in 2012 into 2013, they built a wall, a 
fence, along the border with Egypt, so the influx stopped. The 
refugees are--they jailed a lot of them with public statements 
saying that we are going to make their lives miserable so that 
they will want to go back to their own country. So about 5,000 
of the Eritreans have now left Israel, one way or another. Some 
of them have ended up in Libya and at the hands of ISIS.
    And they have built a big prison toward the south end of 
Israel, where a lot of them are being kept. It is a horrific 
story.
    They are gradually starting to do some RSD in Israel. We 
provided a Tigrigna, Eritrean language, translation of the 
Israeli RSD form to help the individuals. So at least they are 
going on record that they have applied for it.
    Ms. Bass. Given that the situation is so isolated, is it 
possible that they are not aware of the torture and what is 
going on?
    Mr. Stauffer. Frankly, this is one of the drivers for our 
documentary, and----
    Ms. Bass. What is? The----
    Mr. Stauffer. What you are saying.
    Ms. Bass [continuing]. Torture?
    Mr. Stauffer. So, for awareness in Israel----
    Ms. Bass. Oh.
    Mr. Stauffer [continuing]. That we will make a Hebrew 
version of this with Hebrew subtitles, which will document the 
fact--because this is it. I mean, this is a statement that--are 
you really a refugee, or are you an economic migrant just 
coming in?
    Ms. Bass. Right.
    Mr. Stauffer. And they call them infiltrators, you know. 
They don't call them refugees.
    So the number of Eritreans in Israel now is about 30,000. 
And, as I mentioned, 7,000 of them are torture survivors.
    Ms. Bass. And when you say that the 30,000--they are not in 
prison? They are in the general population?
    Mr. Stauffer. Some of them are in prison. If I had to 
estimate, there are probably around 5,000 in prison. The rest 
are in the south, the southern part of Tel Aviv. That is where 
the bulk of them--they are also scattered around in the 
country, but most of them, they congregate in Levinsky Park in 
Tel Aviv.
    And the whole issue of whether they can work is they get 
these temporary visas, and then the employers can get in 
trouble, though, if the person doesn't have a visa. And there 
are no real public health benefits available to these folks.
    Ms. Bass. Is there any international observation of the 
conditions in the prison? You say there is no public health--
there is no health--I mean, there has to be.
    Mr. Stauffer. I am not aware that there is. There are a 
couple of people from the Hotline for Refugees and Migrants who 
are allowed access to the prisons.
    I don't know that the conditions in the prisons are all 
that bad compared to other places, but the point is that they 
are in prison. And, you know, they haven't really done anything 
wrong, other than cross into the country. You know, these are 
not lawbreakers otherwise. I mean, the Israelis would say they 
are lawbreakers for being illegal aliens, but other than that, 
no.
    Ms. Bass. Thank you.
    Just one final question. Ms. Hollingsworth, you described 
refugees being divided by their income, and you said some were 
better off and wealthier. And I just wonder, what does that 
mean to somebody who is in an IDP camp?
    Ms. Hollingsworth. Thank you for the question.
    Yes, this household economic assessment, I think, done by 
World Food Programme and UNHCR is a strategy to be more 
strategic with its assistance. And, again, I think that is a 
laudable effort.
    So I think the strategy here is to look at those who are 
truly the most vulnerable to be able to actually get more 
assistance to them than they are receiving today and lessening 
the kind of assistance for those that--I wouldn't use the term 
``wealthy,'' but better off in the terms of at least having a 
few more resources available.
    And we saw this, as an example, in one of the refugee 
camps. We spoke with many refugees during our visit, and it was 
described to us how much the vulnerable refugees were leaning 
on the other refugees that maybe had a little bit more to 
share. Now, again, I want to be clear, that is a very small 
percentage.
    Ms. Bass. Thank you very much.
    And thank you, Mr. Chairman, again.
    Mr. Smith [presiding]. Thank you.
    Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Stauffer, if you get your video done in Hebrew, I will 
give you my personal assurance that we will get as many copies 
as you can provide to the appropriate people in Israel at the 
very highest levels of government to make sure that they are 
aware of it.
    I think for the vast majority of Americans, the 
overwhelming majority of Americans, one, they don't even know 
that this country exists, let alone the unbelievable, horrific 
things that you are describing. And the U.S. population, by and 
large, is a very kind and benevolent; when they see a need, 
they will reach out. We have seen that over and over and over 
again. And yet this particular issue is not one that has been 
highlighted.
    So, as it relates to both here in the United States, I know 
the chairman and ranking member are very committed to making 
sure that that message gets out, but you have my personal 
assurances that from an Israeli perspective I will be glad to 
make sure that the appropriate people get that.
    To give you a perspective, they have a hospital right below 
the Golan Heights that serves Syrian people that come across, 
and yet the Syrians can't even tell them that they have been 
served in Israel, for fear of retaliation when they return.
    And so I would like to believe that this is a matter of 
information and not just turning a blind eye. So we will work 
on that.
    Mr. Stauffer. Thank you.
    Mr. Meadows. Let me come to you. One of the issues that you 
talk about at the very end of your testimony is a long-term 
development plan. And for many Americans, that is a real 
concern. When you say long-term development or any foreign 
aid--you know, I share many times that I am big on foreign aid. 
It does not get me votes back home in North Carolina. It is not 
a positive thing.
    So, with that, how do we target that development aid, where 
we are not in a jobs program or we are in an education program, 
where we are meeting the very basic humanitarian needs and yet 
not in what some people would call nation-building?
    Ms. Eisenbarth. Right. So thank you for that question.
    I agree, from your earlier remark, that the American people 
are quite benevolent. I also understand some of the challenges 
with selling foreign aid back to your constituencies at home.
    First, I would say that foreign assistance on the 
humanitarian side primarily is my focus. But on the development 
side, there have been some very strong accomplishments in terms 
of making a difference on eliminating child mortality, 
improving water and sanitation, improving access to health 
care, including access to antiretroviral drugs, prevention of 
HIV. All of these things are strong successes.
    Mr. Meadows. So when you are talking about that as 
development, see, many of us would put that more on the 
humanitarian side of it, because, you know, it gets back to 
what Ms. Hollingsworth was talking about, some are considered 
well-off versus not well-off.
    Ms. Eisenbarth. Right.
    Mr. Meadows. Well, even the well-off folks that we are 
talking about, their annual income is what even the poorest of 
the poor here would--they would be appalled at what wealthy----
    Ms. Eisenbarth. Right.
    Mr. Meadows [continuing]. Is in some of these nations.
    Ms. Eisenbarth. Yeah. So, when we are talking about 
development, I would like to think of it as creating 
efficiencies in the humanitarian system, I think both from the 
perspective of eliminating, if we can, or at least addressing 
the causes of displacement.
    So when you have populations, for example, in eastern DRC 
who are continuously facing displacement because of violence, 
because of lack of development there, that we are not just 
continually meeting basic needs but looking at the long-term 
causes of the vulnerability of those populations. And so, 
instead of just feeding--the adage of giving a man a fish but 
then giving a man a fishing pole.
    And so looking at what we can do--of course not creating a 
jobs program, but looking at what we can do to help populations 
become more self-sufficient, particularly from the perspective 
of communities that are facing displacement, that are facing 
marginalization by the countries where they are residing, both 
the host communities that are hosting displaced populations but 
also the people that are displaced there.
    Mr. Meadows. All right.
    And so how do we address the difference between the 
political aspect of this conflict--because many times it is 
political, but oftentimes it is also tribal. And so, when we 
look at it specifically within Africa, you look at a different 
people group. You know, having spent a lot of time and being 
familiar with what is now South Sudan, spending time on the 
ground in Kenya, it is not always necessarily a political 
conflict, as we see in some of the ones that you are talking 
about. It has bigger underlying issues with regards of just 
whether there is peace in the region. And so we can go in and 
we can supply the development side of things, and yet that gets 
overrun by a different people group.
    So how do we best do that? And/or--and I will give you 
maybe an easier place here--what is the role of U.N. 
peacekeepers as it relates to that?
    Ms. Eisenbarth. So the first question about the role of the 
political side, perhaps, of the U.S. Government and the 
political dynamics underlying conflict, I would say that it is 
not an either/or scenario--people are facing some severe 
circumstances overseas, as you have mentioned, particularly 
those who are in the midst of the crossfire, in the midst of 
conflict. And so you need to provide humanitarian assistance to 
meet immediate needs. You also need a longer-term approach to 
help those communities become self-sufficient. But you also 
need--the U.S. has a lot of leverage, in some places more than 
others, to persuade parties to the conflict to make peace, to 
get over their political differences.
    I think in the case of South Sudan and other places, CAR 
being one of them--from what I know of those conflicts, it is 
not necessarily at its core a tribal or an ethnic conflict.
    Mr. Meadows. Right.
    Ms. Eisenbarth. It is, rather, those kinds of identities 
being exploited, if I may, by parties to the conflict to gain 
popular support for their armed movement, in many cases. And so 
you have to have the, like I said, I think there is a lot that 
can be done on the political side, using the U.S. leverage, to 
persuade parties to the conflict to make peace.
    And I forgot your second question.
    Mr. Meadows. U.N. peacekeeping.
    Ms. Eisenbarth. Oh, U.N. peacekeeping. Thank you.
    It is, obviously, a quite complex role that the U.N. 
peacekeepers are playing. It is in constant need----
    Mr. Meadows. It is interesting that you say that, because I 
don't see it as that complex. I think maybe the definition of 
where we need to go with U.N. peacekeeping and how it is 
defined perhaps needs to be redefined. Because what we have 
done is we have had a certain model there.
    But we will follow up on that.
    Ms. Eisenbarth. Okay.
    Mr. Meadows. And, Ms. Hollingsworth, did you want to 
comment----
    Ms. Eisenbarth. Can I just say one last thing, though?
    Sorry, Ann.
    I think it is in need of constant evolution and looking at 
how to improve the system, but it does save lives. For example, 
in South Sudan, you have now, as of Tuesday, the U.N. was 
reporting 150,000 people in U.N. peacekeeping bases. And so I 
will be the first to admit that it is challenged and it needs 
improvements, but it does save lives and is a worthwhile 
investment.
    Ms. Hollingsworth. Thank you. So, just circling back on 
development, I actually think Chad is a great example here to 
be referencing, because when we look at what Deputy Assistant 
Secretary Wiesner raised in her comments today; Chad actually 
wants the refugee population to be integrated. And so they have 
made small steps to incorporate the refugees into both the 
education and healthcare systems.
    Now, from what we heard and from what we saw on the ground, 
the capacity is definitely not there, but there are discussions 
about the national development plan. There are a lot of things 
being discussed right now in Chad. And Chad could be great case 
study, because when we look at, sort of, the political angle to 
this and what the role the host countries should be taking, we 
have a couple of specific recommendations for Chad within our 
report specifically targeted at that.
    Secondly, on your peacekeeping question, we haven't brought 
up what is going on in Darfur right now, and I wanted to 
briefly raise this, just with the UNAMID context, very briefly. 
Now, this is in no way a perfect peacekeeping mission, but I 
just want to circle it back to what we saw on the ground in 
eastern Chad, which is along the Sudan border. This situation 
is fluid, and the violence in Darfur is increasing.
    The Sudanese refugee population in eastern Chad, while it 
is viewed as being quite chronic--and most of the refugees we 
spoke with had been there for 10 to 12 years--we did meet a 
refugee who had fled 6 days prior and had never been a refugee 
before. So, basically, a militia group had said they were going 
to do an attack on her village. It took her 15 days to get to 
the refugee camp inside Chad, where her sister was. Her family 
was scattered. She had no idea how she was going to survive and 
take care of herself.
    This ties back to UNAMID, which is the importance of the 
protection of civilian capacity that we are looking at right 
now. And access for humanitarian actors has been a longtime 
problem in Darfur. But I did want to note that Darfur 
definitely has fallen a bit off the radar, and the increased 
violence that is going on in there needs to be addressed. And 
UNAMID really needs to be there right now.
    Thanks.
    Mr. Meadows. All right. Thank you.
    I will close with this last question. And, I guess, if you 
can keep it as brief as possible, because we have some better 
questions to follow.
    With U.S. involvement in all of these different areas, how 
do we avoid the image of coming in and trying to set up our own 
governments, whether they be public governments or ones that 
are controlled by the United States?
    Because there is a big pushback with that, they want the 
humanitarian aspect of it but not necessarily the conflict 
resolution aspect of this.
    So how do we do that most effectively? And can you point to 
any examples where that has worked well, where the host country 
has said, we appreciate you coming in? It has been that fine 
balance of support but yet not so much of control.
    Ms. Eisenbarth. So I think both Ann and I have referenced, 
in terms of restructuring development so that it does become 
more tailored to the needs of displaced populations and better 
linked with humanitarian aid efforts, we both have referenced 
the need to, through perhaps behind-the-scenes diplomacy, using 
the leverage that I mentioned earlier that the U.S. has, 
getting behind a national development plan, so that it is not 
the U.S. coming in and pushing its way onto the development 
agenda of host-country governments but, rather, getting behind 
them using, perhaps, evidence.
    There is a growing body of work that supports the 
importance of using development to address protracted 
displacement crises but working in partnership with host-
country governments and their own development plans instead of 
bringing in our own agenda. I think that is one example.
    It is happening in Kenya.
    Mr. Meadows. Right.
    Ms. Eisenbarth. There is a lot of opportunity there with 
the devolution process to really partner with the Kenyans. And, 
obviously, Kenya is one of the leading refugee-hosting 
countries.
    Mr. Meadows. Right. All right.
    Ms. Hollingsworth?
    Ms. Hollingsworth. I will be brief: Consultation, 
consultation, consultation.
    In the example of Chad, I think it is important to note 
that the U.N. Security Council endorsed a U.N. Integrated 
Strategy for the Sahel. So I think that is a good angle, as 
well, when we talk about the neighbors being involved with what 
we want for the individual country so, again, it is not just 
the U.S. Government coming in.
    Thanks.
    Mr. Stauffer. My experience, of course, is really focused 
on Eritrea. And I think, there is no prescription other than 
trying to continue to work on a humanitarian basis and 
diplomatically and have dialogue to see if there is any path 
forward that will change the behavior of the regime.
    But the knee-jerk reaction there has always been that you 
are trying to put us down, you are trying to keep us from being 
successful, you are trying to support Ethiopia, our enemy, and 
so forth.
    So I would really leave this to the diplomats to figure out 
if there is a way, but I think, not pushing for democracy but 
rather pushing for improvements in humanitarian behavior.
    Mr. Meadows. All right.
    Mr. Chairman, thank you so much.
    I apologize to each of you. I have to pop out. But we are 
monitoring this back in my office. But thank you so much for 
your leadership.
    Mr. Smith. Thank you very much, Mr. Meadows.
    Thank you for your testimonies and your leadership.
    Just a couple of questions, first to Mr. Stauffer.
    As you know, Eritrea is a Tier 3 country in our TIP Report 
designations--in other words, an egregious violator. In your 
testimony, you have elaborated much more than the TIP Report 
did in terms of the horrific nature of this ransom, of this 
scheme, $30,000 per person, the torture business, as you 
pointed out.
    My question is, in 1998, I wrote a law called the Torture 
Victims Relief Act. It has been reauthorized four times, and I 
have a pending bill now to reauthorize it once again.
    There are torture centers, victims centers all over the 
world. We give money to the U.N. Voluntary Fund for Victims of 
Torture for their centers, as well.
    You mentioned 7,000 Sinai torture victims currently in 
Israel. I am not sure how many are here and whether or not they 
are getting the post-traumatic stress help that they so 
desperately need that these centers can provide in a very 
unique way. If you could speak to that?
    Mr. Stauffer. My understanding is that there is none of 
this going on for these 7,000 in Israel. And that was a topic 
of discussion with the NGO, the Hotline last week, was about 
how to get mental health attention to these folks in Israel.
    There is the Center for Victims of Torture affiliate in 
Ethiopia that is helping at camps in Tigray, which is in 
northern Ethiopia.
    But a lot of them, I am sure, in the United States, for 
example. You know, the U.S. brings in Eritrean refugees and 
resettles them officially. And many of these are torture 
survivors, and they don't really talk about it. They don't want 
to talk about it; they don't want to reveal it. So I think 
there are a lot that are going untreated, and it is a shame. 
But, you know, if it is an Eritrean, they should be screened 
for torture. That is all I can say.
    Mr. Smith. I deeply appreciate you bringing that to my 
attention and to our attention as a subcommittee. Again, I 
wrote that law, and I did not know they weren't getting help 
either in Israel, and I don't know about getting it here.
    You know, some of the estimates put it at as many as 
500,000 of our asylees in the United States were torture 
victims, some to different degrees of course. And the terrible 
abuse that you cited in your testimony----
    Mr. Stauffer. Yeah. I serve as----
    Mr. Smith [continuing]. Certainly has traumatic PTSD----
    Mr. Stauffer [continuing]. A witness in asylum cases in the 
United States, and I see these declarations month-in and month-
out. And exactly. That is why they are asylees. That is why 
they have gone to the trouble of going to Central America and 
going to country to country to country into Texas, because of 
this mistreatment.
    Mr. Smith. And they do need to be encouraged to get the 
help.
    Mr. Stauffer. Yes.
    Mr. Smith. Because it is so deeply repressed. I mean, we 
have held hearings and heard from victims who got not total 
relief but a great deal of relief from the burdens, the 
sleepless nights, the chemical dependencies that follow because 
they just can't cope with what they have been through.
    So I would love to work with you on trying to ensure that 
our Government is doing--and we will contact the Israelis, as 
well--make sure that at our centers, at least, there is an 
outreach to the Eritrean community to ensure that they get that 
help.
    Mr. Stauffer. Okay. Great. Thank you.
    Mr. Smith. We are looking to mark up our reauthorization 
very shortly. So, you know, thank you for bringing all of this 
to my attention and to the subcommittee's attention.
    Eritrea signed the torture convention in September 24, 
2014. And I am wondering what tangible impact that has had with 
regards to the panel of experts that oversee the torture 
convention at the United Nations. Have they looked into torture 
by the government or its complicity in torture?
    Mr. Stauffer. Not that I am aware of. I am not sure how 
they would look into it other than what has already been done 
with people that have left the country. I mean, you--there is 
no access, no ability to do any forensic studies within the 
country.
    Mr. Smith. Because very often, you know, a Special 
Rapporteur can go and visit, do a study, doesn't have----
    Mr. Stauffer. The Special Rapporteur is not allowed in the 
country.
    Mr. Smith. Okay. If I could, Ms. Hollingsworth, you heard 
the exchange earlier with the panel for the administration and 
again, the subcommittee appreciates you bringing to our 
attention just, as you pointed out, humanitarian organizations 
like UNHCR do not have staffing, funding or mandates to fix 
these problems, talking about Chad and the 360,000 refugees 
from Darfur that are there, and please let us know how we could 
be even more helpful as we go through the appropriations cycle 
and trying to ensure that our response--I remember traveling 
with Ambassador Williamson, and Greg and I have been to Darfur, 
we have been to camps so--in Darfur. We actually met with 
Bashir and argued with him in Khartoum. It was not a pleasant 
time.
    But that said, I was with Ambassador Williamson at the U.N. 
Human Rights Commission, when it was still a commission, not a 
council, and the reluctance to call what was going on in Darfur 
a genocide was appalling. They just didn't want to call it 
that, and if we have taken our eye off the ball prematurely, 
which we may have with regards to Darfur, I think your timely 
reminder as well as with the refugees' situation is a very 
important one. If you wanted to elaborate on that at all, 
please do.
    And then the issue that you raised so well about the food 
rationing cuts, that needs an immediate response. Malnutrition 
and the undersupply of these important food stuffs, we have got 
to address that. So maybe you could elaborate on that if you 
would.
    Ms. Hollingsworth. Thank you, Mr. Chairman. First, I would 
say that as much as we can during the appropriations process, 
the development assistance is incredibly important through the 
lens, as I have stated, through Chad. When I talk specifically 
about how UNHCR does not have the funding or resources, I think 
the technical expertise is also an important part of this, and 
particularly when we look at those actors who are able to 
commit long term to projects on water, which is so essential to 
Chad, that is really the angle that we view as one of the most 
essential, as far as development projects.
    Secondly, to the food rations, again, I really appreciate 
you pushing this with the first panel. We also want to be very 
clear that this is to fill a gap that we saw on the ground. We 
are not saying that the restoration of the 2,100 calories will 
be forever. This is more until the household economic 
assessments can be done and the new assistance strategy can be 
implemented. And most importantly, Mr. Chairman, once that is 
implemented UNHCR and others need to very tightly monitor the 
coping mechanisms and impact on what is happening to the 
population, and to be able to fix that as this moves forward. 
Thank you.
    Mr. Smith. Can I ask you, are you satisfied that anti-human 
trafficking efforts for the IDPs and the refugees are as robust 
as they could be?
    Ms. Hollingsworth. We didn't look into that. So I can't 
address that today.
    Mr. Smith. Thank you.
    Ms. Eisenbarth, in your testimony about the Central African 
Republic, again, all of it was excellent, but just to ask you a 
question with regards to that, 900,000 IDPs, 460,000 refugees, 
and you cite obstacles that the IRC and other humanitarian 
agencies are experiencing. Could you elaborate on what those 
obstacles are?
    Ms. Eisenbarth. Yeah. So as I noted in my testimony, I 
think we are in a better place, overall, in CAR, but I want to 
underscore that we shouldn't just see the country as on the 
road to progress, that there are still a number of obstacles, 
and I think primarily the one that we are experiencing is 
addressing humanitarian needs outside the capital. The country 
is still in the grip of some pretty serious insecurity, and it 
is very difficult for humanitarian actors, the IRC, others, to 
access populations that are outside some of the main population 
centers. Bangui, of course, being one of them, but other major 
towns upcountry, and so that continues to be a challenge that 
befuddles our ability to get access to the populations that 
need humanitarian assistance that have essentially no access to 
basic services.
    Mr. Smith. As you point out in your testimony, the average 
length of displacement reaches 17 years. Is that African 
centric, or is that an average----
    Ms. Eisenbarth. I think it is a global figure, yeah, yeah.
    Mr. Smith. Global figure. Okay. Is it worse----
    Ms. Eisenbarth. It might be, but I can't say specifically, 
but I think it is definitely indicative of Africa, perhaps, if 
not worse.
    Mr. Smith. Just let me ask, finally, if I could of you, Mr. 
Stauffer, what has the ICC done vis-a-vis Eritrea? You know, we 
know that they have been slow, but they are looking at 
indictments of a couple of Boko Haram people. They have had one 
conviction of a DR Congo person who committed genocide, but it 
seems to me that the ICC could be doing more, particularly with 
a country that has been so barbaric. You called it the North 
Korea of Africa. And what has the AU done vis-a-vis Eritrea to 
really bring focus and attention----
    Mr. Stauffer. Well, I am not aware of anything that the ICC 
has done. Certainly there has been a lot of effort in Europe to 
raise awareness about as much--the situation in Eritrea it is 
much more aware in Europe than it is here, partly because of 
the many Eritreans that have come across the Mediterranean, 
but--and there has been some really strong advocacy by several 
folks, several Eritrean folks in Europe to create awareness, 
but, you know, whether the ICC has even taken any, you know, 
action or whatever internally, I just don't know.
    And as far as the AU, there has been a process, a thing 
called the Khartoum process where they are attempting to work 
through--mainly diplomatically and maybe some economic aspects 
to stop the flow of people coming out of Sudan, out of Eritrea, 
moving up to the Mediterranean and so on. But there is, 
frankly, I think, it has been lip service that has been coming 
from Eritrea that they are going to try to stop the departures 
and so forth.
    And just as a thing that is really gotten things stirred up 
is that the Danes sent in a team into Asmara to try to figure 
out, we are giving all this asylum to Eritreans. Should we 
really be doing it or are things as bad as they--and they came 
out with a report that: Oh, things are getting better and they 
are working hard on it. They should know that going to Asmara 
is the last place in the world they will get the answer to this 
type of question. And they did not get any corroboration for 
anything good happening when they went south in Ethiopia and 
talking to other people.
    And, unfortunately, the Brits have been trying to utilize 
this flawed report that, you know, things aren't at bad as they 
supposedly are in Eritrea. But all indications are that it is 
business as usual, and there has been nothing substantial to 
change things, ICC or otherwise.
    Mr. Smith. Has the Atrocity Prevention Board acted in an 
early warning prevention capacity? Has it worked? Ms. 
Eisenbarth?
    Ms. Eisenbarth. I, to be on honest, have not followed their 
work closely. But my organization has been, of course, watching 
the situation in Burundi. We were active in Burundi long before 
the current crisis, and of course, are now responding both on 
the Burundi side and the Tanzania side. From my understanding, 
there was a lot of work done by the Atrocity Prevention Board 
to draw attention to the crisis in Burundi. And so, I think it 
did catalyze some attention. Whether or not it could have done 
more to prevent where we are now with the country, that is my 
most recent experience with the APB, and so that is the best I 
can say.
    Mr. Smith. I had asked the previous panel, and maybe you 
might want to respond to it on the first 1,000 days from 
conception to the second birthday. Have you found in IDP 
settings and refugee protection settings that there is an 
awareness that, again, if you get that from conception that 
first month, second month, third month, if you get that right, 
that child's life is exponentially enhanced on a myriad of 
fronts. If you don't, it is lost. You don't turn stunting 
around when they are 2. So I am wondering, you know, if you 
have seen an awareness of that? The first amendment I offered 
that became law here in the early 1980s with the Child Survival 
Fund, a $50 million authorization, and I traveled to El 
Salvador during a day of tranquility between from FMLN and the 
Duarte government to see that money used to vaccinate kids 
against pertussis, diptheria, polio, and the like.
    And so I am a big fan of vaccinations. Every dollar spent 
there is transformational as well, and it is right in line with 
this idea of early intervention having a huge impact. And I am 
wondering if you have seen in the first 1,000 days are kids 
getting their vaccinations as toddlers and as young children, 
neonates, even, in these camps? Is that----
    Ms. Eisenbarth. I appreciate your attention to this. I have 
a personal passion for this issue as well. So I appreciate the 
question. The IRC is quite active in malnutrition programming 
in many of the countries where we are working. One program that 
has proven quite effective in terms of delivering first-line 
treatment and identification of symptoms of some of the leading 
causes of child mortality has been the Community Case 
Management Program in South Sudan. I will have to get back to 
you with the exact figure, but it has resulted in somewhere on 
order of 80-percent reduction in child mortality by addressing 
some of these leading killers of children early on.
    The IRC is currently doing some research into how we might 
integrate malnutrition identification and first-line treatment 
into this program. I think particularly in an area like South 
Sudan, it is quite difficult to access, and I think it applies 
to other countries as well, but in South Sudan, it is quite 
difficult for families to reach health clinics, for even 
humanitarian actors to set up operations, formal operations, 
near where communities are displaced. Having a program like the 
Community Case Management Program, where you have community 
caseworkers going into communities, sometimes, in large part, 
on foot, to work with communities to address some of these 
leading causes of child mortality is very effective.
    And, again, we are looking to see how we might integrate 
malnutrition into that. The IRC actually released a report on 
malnutrition in South Sudan just 2 months ago, and I think it 
is important, from our perspective, to look at some of the ways 
like this modification to this program where we can improve the 
humanitarian response, but particularly in a case like South 
Sudan, the conflict there has really set back efforts to 
address some of the underlying causes of children not being 
able to be well-nourished in their first 1,000 days, for 
mothers as well. And it underscores the importance of finding a 
political solution to this conflict, so that we can get the 
communities in South Sudan back on the path to development to 
address issues like access to safe water, access to health 
clinics, all of these--access to food, all of these different 
drivers of malnutrition. So I can send that report to your 
staff.
    Ms. Hollingsworth. Thank you. I did want to take note that 
once the food ration cuts began in 2014, UNHCR did do a 
nutrition survey to look at the impact, and our understanding 
is the takeaways from the results of that survey was the 
malnutrition rates had basically stayed about the same. We saw 
a little bit of a different opinion when we spoke to the 
refugees themselves, particularly the women spoke about the 
children, and obviously the food concerns of access to food was 
something that was raised time and again. I will say that 
something we raised in the report is particularly important for 
what you raise, Mr. Chairman, is the nutritional supplements 
which have continued, and that has been our understanding. The 
problem is that the children that are receiving those 
nutritional supplements are sharing those with their extended 
family because the food rations have overall been cut. So 
because they are sharing, it means the recovery for their 
malnutrition takes much longer. So I think that is an important 
context when we look at the underlying concerns around this. 
Thank you.
    Mr. Smith. About 15 years ago, Greg Simpkins and I were in 
Lagos, and were speaking on human trafficking protection of 
unborn children, which I am very pro-life. I believe in womb-
to-tomb protection. And a man came up to me and says: Well, 
what are you doing about autism in Nigeria? And I said: 
Nothing. Doing a lot in my own country. I have no idea you have 
a big problem here. Again, I asked the previous panel about 
this, and we have been working with his NGO ever since. His 
wife is a medical doctor in Lagos. He works for Exxon. And 
there is such an unmet need in Africa. WHO says tens of 
millions of children are on the spectrum. We had a woman from 
Cote d'Ivoire testify at one of our hearings on a global brain 
health bill that deals well Alzheimer's, autism, and 
hydrocephalic condition, which is also devastating in Africa, 
and she said there was nothing whatsoever for my child. She now 
is in Ohio and has gotten services which have helped her son. 
So I have been raising it everywhere I go, and I am wondering, 
again, twice jeopardize a child who is in a refugee camp or an 
IDP camp who is on the spectrum may not even be recognized for 
what he or she is suffering, and I am wondering if you have 
seen any evidence of an awareness of a need to address autism 
in that setting, because they are there?
    Ms. Eisenbarth. I can't speak to a global awareness of 
autism. I just will say that there is an awareness on the 
critical importance of women, women who are of childbearing 
age, women who are already pregnant, or who are likely to 
conceive of also being the beneficiaries of nutrition programs. 
There have been a number of efforts in refugee settings to 
innovate and try to tailor specialized feeding programs for 
women. But in terms of sort of rooting that in an awareness of 
autism, I can't speak to that.
    Mr. Smith. Is this something you could just keep in mind as 
you go forward?
    Ms. Eisenbarth. Of course. I will flag it for country 
teams.
    Ms. Hollingsworth. I can't speak to the autism issue, but 
just to support Natalie there on the issue of women's health 
issues and concerns, one thing I did want to flag that I 
haven't had the opportunity to is the issue of--I raised in my 
testimony women leaving camps to find jobs and other things. 
The issue of getting water is particularly important, and one 
of the female refugees we spoke with talked about the daily 
trek to go find water outside the refugee camp. And 
unfortunately, much of that water is contaminated.
    So what would happen was she would bring the water back, 
she would get sick, her children would get sick, her neighbors 
would get sick. So this is a healthcare issue that I am sure 
you know quite well, but I think it is important in this 
context to raise with this opportunity. So thank you.
    Mr. Smith. No. Thank you. Thank you for underscoring.
    One final question, and it is on DR Congo. Can you shed any 
light on that refugee and IDP situation? Again, Greg and I were 
there in Goma. It has been a while. And we do have a 
distinguished Member of the Congress, of the House, with us 
today who deals with that issue as well. If you could, yes, Ms. 
Eisenbarth.
    Ms. Eisenbarth. I think eastern DRC is actually a perfect 
case study for some of the issues that I have raised in my 
testimony. As I said previously, I don't know if you were in 
the room, Mr. Smith, but many communities in eastern DRC are 
facing repeated displacement. Often remaining displaced for 
years on end, and it is important to really look at the 
holistic needs of those communities, that we are not just 
delivering assistance along the peaks and valleys or the 
conflict crisis situation in eastern DRC, but really taking a 
long-term approach to addressing needs there.
    We were thankful to see the appointment of Mr. Perriello as 
the new special envoy for the Great Lakes region because, 
again, looking at some of the underlying drivers of 
displacement and some of the political issues that have been 
persisting in eastern DRC and the region for many years is 
essential to providing the stability that communities need to 
meet their needs and to thrive.
    Ms. Hollingsworth. Thank you for mentioning the Democratic 
Republic of the Congo. RI has produced three reports over the 
past 12 months. Most recently, it was on looking specifically 
at the USAID programs, 5-year holistic programming for gender-
based violence, and that was released. For the purposes of this 
hearing, though, I would like to raise the concerns around 
refugee support versus IDP support in the DRC, and I think the 
refugees themselves inside the DRC are receiving assistance. It 
is those 2.7 million or so IDPs that are, quite frankly, 
neglected at this point. We have been championing this for 
several months to get more assistance directly to them, and we 
hope you will raise this as well. So thank you.
    Mr. Smith. So thank you very much for your leadership. As 
you come up with ideas that you think we could help amplify or 
need to work on, please let us know. We do have a hearing on 
Burundi scheduled for the July 22, and we really hope to bring 
some additional focus on that crisis as well.
    Thank you again. The hearing is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

                                 
                                    

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
